<html>
<title> - HUMAN TRAFFICKING AND TRANSNATIONAL ORGANIZED CRIME: ASSESSING TRENDS AND COMBAT STRATEGIES</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                  HUMAN TRAFFICKING AND TRANSNATIONAL
                   ORGANIZED CRIME: ASSESSING TRENDS
                         AND COMBAT STRATEGIES

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2011

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                            [CSCE 112-1-10]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Available via http://www.csce.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-765 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS



               

          HOUSE                                    SENATE

CHRISTOPHER H. SMITH, New Jersey,     BENJAMIN L. CARDIN, Maryland, 
Chairman                              Co-Chairman
JOSEPH R. PITTS, Pennsylvania         SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama           TOM UDALL, New Mexico
PHIL GINGREY, Georgia                 JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas             RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida            ROBERT F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,            SAXBY CHAMBLISS, Georgia
New York                              MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina         KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee
           

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
              MICHAEL C. CAMUNNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  (ii)



















                  HUMAN TRAFFICKING AND TRANSNATIONAL
                   ORGANIZED CRIME: ASSESSING TRENDS
                         AND COMBAT STRATEGIES

                              ----------                              

                            November 3, 2011
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Marco Rubio, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    25

                               WITNESSES

Greg Andres, Deputy Assistant Attorney General for the Criminal 
  Division, U.S. Department of Justice...........................     3
Piero Bonadeo, Deputy Representative to the United Nations Office 
  on Drugs and Crime, New York...................................     9
Martina Vandenberg, Pro Bono Counsel, The Freedom Network USA....    14

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    28
Prepared statement of Hon. Benjamin L. Cardin....................    30
Prepared statement of Marco Rubio................................    31
Prepared statement of Greg Andres................................    32
Prepared statement of Piero Bonadeo..............................    39
Prepared statement of Martina Vandenberg.........................    42

                                 (iii)

 
                  HUMAN TRAFFICKING AND TRANSNATIONAL
                   ORGANIZED CRIME: ASSESSING TRENDS
                         AND COMBAT STRATEGIES

                              ----------                              


                            November 3, 2011

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10 a.m. in room B-318, Rayburn 
House Office Building, Washington, DC, Hon. Marco Rubio, 
Commissioner, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Marco 
Rubio, Commissioner, Commission on Security and Cooperation in 
Europe; and Hon. Steve Cohen, Commissioner, Commission on 
Security and Cooperation in Europe.
    Witnesses present: Greg Andres, Deputy Assistant Attorney 
General for the Criminal Division, U.S. Department of Justice; 
Piero Bonadeo, Deputy Representative to the United Nations 
Office on Drugs and Crime, New York; and Martina Vandenberg, 
Pro Bono Counsel, The Freedom Network.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    The Commission will come to order, and good morning to 
everybody. Thank you for being here for this hearing on the 
Commission on Security and Cooperation in Europe--human 
trafficking and transnational organized crime, assessing trends 
and combat strategies. This morning we'll be talking about 
human trafficking, as we have done so often in the past on this 
Commission. In 1998, some of you may know, I introduced the 
Trafficking Victims Protection Act, and not long after that 
chaired this Commission's first hearing on human trafficking.
    At that time, the idea that human trafficking even existed 
was--and was widespread--was met with a wall of skepticism and 
opposition. People, whether in government or not, thought the 
bold new strategy of the TVPA, although we had a different name 
for it then--we finally added that name near the end of the 
process--but they thought that sheltering, asylum and other 
protections for victims, long jail sentence and asset 
confiscation for the traffickers, and tough sanctions for 
governments that fail to meet minimum standards, were merely a 
solution in search of a problem.
    Today, few would deny that the scourge of human 
trafficking, though often hidden, is in fact very widespread. 
Back in the 1990s, the term ``trafficking'' was applied almost 
exclusively to illicit drugs or weapons. Reports of vulnerable 
persons, especially woman and children, being reduced to 
objects for sale were met with surprise, incredulity or 
indifference. It took two years to educate people, especially 
in the U.S. House and Senate, to muster the votes for passage 
of the legislation.
    Today as we explore the links between transnational 
organized crime and trafficking, I'd like to start by pointing 
out that there is a new frontier in the fight against human 
trafficking. Years ago human traffickers were not highly 
organized and were not typically connected to gangs. They were 
involved in other kinds of organized crime. This is less and 
less true today, and we need to consider how methods of 
fighting human trafficking need to adapt. We know that human 
trafficking, or modern-day slavery, is the third-most lucrative 
criminal activity in the world. According to the International 
Labor Organization, ILO, human traffickers made profits in 
excess of $31 billion a year. And so it is not surprising that 
more and more organized criminal groups are engaging in modern-
day slavery. And, of course, while drug and arms traffickers 
have a commodity that can be sold only once, human traffickers 
can purchase a slave and continually exploit that individual 
until he makes his money back and then some. And obviously, it 
is very, very lucrative.
    This is a complex subject. It is marked by the growing 
ingenuity of organized criminal groups, the difficulty of 
knowing what or who passes over increasingly porous borders, 
and the gangs' use of modern technologies. All this has 
obscured the activities of many syndicates, and made learning 
about fighting their activities very difficult. Yet, it is not 
impossible and simply has to be done, because so many 
vulnerable people--so many lives are at stake.
    I'd like to conclude with one very important point: the 
premise that must shape how we approach the fight against 
transnational organized crime as it diversifies its operations 
into human trafficking. Human beings are more important than 
drugs and guns, of course. Our allocation of effort and 
resources which investigate, and our prosecutorial strategies, 
need to reflect this. This needs to be the highest possible 
priority.
    Today we are joined by a panel of experts on transnational 
organized crime and human trafficking who will shed light on 
current patterns and countermeasures. Their combined expertise 
should paint a clear picture of organized crime's involvement 
in human trafficking, and what can be done to help to stop it.
    With us today is Mr. Greg Andres, the current deputy 
assistant attorney general in the crime division, where he 
supervises the organized crime section at the Department of 
Justice. Mr. Andres comes to us with over a decade of 
experience working on organized crime issues. We will then be 
joined by Mr. Piero Bonadeo, deputy representative for the U.N. 
Office on Drugs and Crime in New York. Mr. Bonadeo's testimony 
will bring the UNODC's years of experience in combating 
transnational organized crime.
    And finally, we will have Ms. Martina Vandenberg, a 
seasoned attorney with years of experience combating 
trafficking in persons as well as in broader human rights 
context of Bosnia and Herzegovina, Kosovo and the Russian 
Federation and Uzbekistan--all of which have significant human 
trafficking histories and problems and are of great interest to 
our Commission. Mr. Greg Andres, I would like to now turn this 
over to you for your comments.

GREG ANDRES, DEPUTY ASSISTANT ATTORNEY GENERAL FOR THE CRIMINAL 
              DIVISION, U.S. DEPARTMENT OF JUSTICE

    Mr. Andres. Thank you. Thank you, Chairman Smith. Thank you 
for inviting me to speak with you this morning about the threat 
posed by human trafficking and transnational organized crime, 
the efforts of the Department of Justice is taking to address 
those threats, and the steps that Congress can take that will 
assist us in those efforts.
    The fight against transnational organized crime is one of 
the highest enforcement priorities of the Department of 
Justice. Together with the United States Attorneys' Office and 
our many partners in law enforcement, the Criminal Division 
investigates and prosecutes cases involving transnational 
organized crime all over the country, indeed, all over the 
world. The threats posed by these groups are significant and 
growing.
    Mr. Smith. Mr. Andres, if you could just suspend for one--
and I apologize for the rudeness of the intervention--but 
would--there's a markup in the Foreign Affairs Committee that I 
must be at--two bills are going to be voted on right now. 
Thankfully, Senator Mark Rubio is here and will take the chair. 
And when you conclude this statement, he will give his 
statement. And I do thank you for your understanding.

  HON. MARCO RUBIO, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Rubio. Thank you, Chairman. Welcome. I don't get to 
chair a lot of things around here, so--people continue. Thank 
you.
    Mr. Andres. Good morning, Commissioner Rubio.
    In recognition of the issues with respect to transnational 
organized crime, in July the administration released its 
strategy to combat transnational organized crime, which sets 
forth a whole-of-government response to the threat. At the 
Department of Justice, we are committed to the fight against 
transnational organized crime and human trafficking, and we 
have enjoyed certain successes to date as to both.
    In the area of human trafficking, the department last month 
secured the racketeering convictions of two brothers who ran a 
human trafficking scheme. That scheme involved smuggling young 
Ukrainian immigrants into the United States and forcing them to 
work without pay through threats and assault, sexual abuse and 
debt-bondage. Roughly six months earlier, in May of this year 
in a separate case, a Uzbek national was sentenced to 12 years 
in prison after he pled guilty to racketeering conspiracy, 
which charged a scheme to recruit and exploit dozens of workers 
from Jamaica, the Dominican Republic, the Philippines and 
elsewhere, and force those individuals to work in hospitality 
jobs in at least 14 states through threats of deportation and 
financial penalties.
    Many of our human trafficking cases involve loosely 
affiliated networks of individuals engaged in the exploitation 
of human trafficking victims. These criminals tend to utilize 
smuggling pipelines and money-laundering conduits operated by 
other criminal groups, and whose services the traffickers 
procure for their own purposes. On occasion, human traffickers 
themselves belong to a larger organized crime group or 
enterprise. In some cases, criminals may operate 
transnationally, recruiting victims overseas with false 
promises--good jobs in the United States--and threatening 
retaliation against their overseas families if they try to 
escape once they realize their true predicament.
    To the extent that these networks or groups are committing 
portions of their crimes abroad, our investigations and 
prosecutions of these organizations and crimes must overcome 
significant obstacles. At a minimum, pursuing an investigation 
abroad is often time-consuming and delays can be significant. 
These delays can undermine our investigations. Tracking down 
criminals abroad often requires the cooperation of foreign law 
enforcement agencies.
    Furthermore, even if we locate our targets, many of the 
investigative tools for gathering evidence are not available in 
the international context. In many countries we cannot employ 
Title III-type wiretaps against perpetrators, or secure routine 
surveillance. Nor can we, in most cases, send an undercover 
agent to gather incriminating statements. Sometimes the 
country's law enforcement agencies may not have the level of 
training or the technology to implement the necessary 
investigative steps, even if they were authorized to do so.
    Arresting lower-level members of the organization and 
persuading them to cooperate against higher-level bosses is 
also extremely difficult, and may require the approval and 
cooperation of foreign authorities. Finally, many countries 
have laws which ban the extradition of their own citizens to 
foreign countries for prosecution. There are important steps 
that we can take to better address extraterritorial threats and 
the increasing global reach of transnational criminal 
organizations.
    The Department of Justice, together with our partners, have 
developed a package of legislative proposals to ensure that 
federal laws keep us up with the rapid evolution of organized 
criminal activity.
    We need to change our existing money laundering, asset 
forfeiture, narcotics and racketeering laws. Additional 
proposals recognize that an increasingly global law enforcement 
environment, witness security and the protection of foreign 
witnesses must also be available. This last provision may be of 
particular help in situations where a foreign government is 
helping us to prosecute an international human trafficking 
ring, but is unable to protect its witnesses.
    I'm happy to discuss these proposals and to answer any 
questions. Thank you very much.
    Mr. Rubio. Thank you. Thank you very much. And I'll couch 
my question in the form of the opening statement.
    First--to thank you for being here, and all those who are 
here to testify and be a part of this hearing on this important 
issue. I'm grateful to the chairman and the co-chairman for 
allowing us to hold these hearings and--on what I think is a 
shocking issue that I was not fully aware of before I got 
here--although I'd heard about it. And I think many Americans 
are unaware of the extent to which this issue impacts the 
country in the world that--we tend to think of slavery as 
something that happened 150 years ago or 200 years ago or in 
other places. But we don't realize that even here, today, in 
the United States, there are people that are being held against 
their will.
    Obviously, we will talk a little bit about sexual 
exploitation, but there's also all kinds of other elements to 
this including forced labor and domestic servitude. And we've 
seen those stories and the kind of the parameters that are 
pretty broad in terms of what qualifies as human slavery that 
exist to this day. I appreciate the work that you guys do on 
these issues. This is a cutting-edge issue that I think we have 
an opportunity to create awareness on, because--and I think in 
our questions we'll get to some of that. I think awareness of 
the existence of this will help us identify domestic victims.
    And I think internationally, our country has taken the lead 
in terms of the role we've played in classifying countries to 
compliance, and the tier system has taken the lead in terms of 
calling attention to this human rights issue. And one of the 
things that always adds to our nation is when we are strong 
spokespersons on behalf of human rights all over the world. And 
I can think of no issue that has a higher priority--or should 
have a higher priority than the issue of trafficking persons 
and human slavery.
    So with that, let me--a couple questions that I have. I 
think the first is--you talked a little bit about the--
obviously the Department of Justice has a long history of 
prosecuting organized crime cases. This human trafficking 
element is a relatively new component of how we are approaching 
these organized crime organizations. How has that forced you 
to--and I think you talked about it a little bit in your 
statement--but how has that forced you to alter how you 
strategize with regard to interacting with these groups? What 
new dynamics does it present from the traditional activities 
that organized crime has largely been linked to--in trafficking 
in drugs, et cetera.
    And second of all, is the law caught up with the realities 
of what it takes to prosecute, whether it's how hard it is to 
get witnesses or reliable information, those sorts of things? I 
mean, I guess my--the basic question I have is: This is kind of 
a new problem that you're facing as you confront these 
organized crime operations. And organized crime itself has 
changed as well. Are our laws up to date with the 21st-century 
realities of prosecuting organized crime--in particular when it 
comes to the trafficking of people?
    Mr. Andres. Thank you, Commissioner Rubio. One thing that's 
certainly clear about organized crime--and organized crime, 
even traditional Cosa Nostra domestic organized crime 
organizations have traditionally evolved, rather significantly, 
over the last decades. The abiding principle of organized crime 
groups is they exist for the purpose of making money--period.
    And the fact that human trafficking is an opportunity to 
generate additional revenues certainly makes it alluring to 
organized crime groups, both here in the United States and 
internationally. So even as we've seen when we've prosecuted 
domestically the mob, we've seen they've changed from tactics 
like murder and extortion to now being involved in white-collar 
crimes or Wall Street. So we're certainly used to the changing 
nature of organized crime, and the fact that it adapts as we 
adapt our law enforcement strategies.
    There is an international component here. It's not the only 
component, but there is an international component here. And 
our laws do need to be updated to address those international 
concerns. When you talk about investigating cases 
internationally, you have to start with cooperation by foreign 
governments. That's essential. In some of these countries where 
there is trafficking and organized crime influence, we don't 
always have the cooperation of those governments. There's 
corruption in many of those places, and so there are 
difficulties with respect to that issue.
    On the legislative front, and briefly, we need to update 
our racketeering laws so that international organized crime 
groups that are operating abroad and don't have as many 
physical touches to the United States, but that are affecting 
the United States--the organizations but also their money and 
their use of the United States financial system to launder 
their money. We need to update our witness protection 
provisions, which allow us to secure witnesses who may be 
involved in prosecutions abroad and that are helping foreign 
governments convict and prosecute these enterprises abroad. So 
we do need to update our laws.
    Let me just finish by saying, we have had successes and we 
have been concentrating on this issue. I think the 
administration's strategy on transnational organized crime is 
another effort to highlight the problem of human trafficking. 
But you should be confident that the prosecutors in the 
Department of Justice, primarily in the Civil Rights Division, 
have taken an active role in prosecuting these cases.
    And if I could just give you one example as it relates to 
Mexico. Since 2009, our prosecutors have been working--along 
with the agents in the FBI and ICE--have been working 
collaboratively with Mexican law enforcement officials on 
arrests, convictions both here in the United States and Mexico. 
We've helped to rescue victims as part of this bilateral 
cooperation; reunify U.S. victims with their families, 
returning them from Mexico.
    We've had success with prosecutions here in the United 
States, both in Atlanta--in the United States versus Ruggiero--
and also in Miami in United States versus Cortez-Castro. So we 
do have working relationships with foreign governments. That is 
a vital part of this strategy because so much of the evidence, 
as it related to international organized crime, exists abroad.
    Mr. Rubio. In terms of the witnesses, the victims, is the 
current structure and nature of our immigration system make it 
easier for these crimes to happen? In essence how is the 
existing immigration structure, complicated visa process, what 
have you, the existing lack thereof or existence of a for lack 
of a better term the guest-worker program.
    It's not really a guest-worker program but that's how it 
really functions as. The way our system, our visa program, is 
currently structured today, does it make it harder to prosecute 
these cases? And more importantly, have the traffickers 
actually figured out how to use the system to their benefit?
    Mr. Andres. I think the latter is important here, that is, 
traffickers have used that to exploit the system and to lure 
people, basically, here to the United States. So through use of 
the Internet or other means to publicize this, those who are 
interested in committing the crime of human trafficking--
    Mr. Rubio. Explain to me briefly how they use the system as 
it's currently structured today. How do they use the current 
visa system to get people in the country and then kind of trap 
them here, right?
    Mr. Andres. Sure, they lure them here with--under the guise 
of getting a guest-worker visa or some other type visa that 
they may apply for. And once they get here, they then exploit 
those individuals. Obviously, a lot of the human trafficking 
problem preys on the vulnerability of people here in the United 
States, whether it's a vulnerability because they're not from 
the United States--they don't have families and relatives here. 
They don't know the system; they don't know the laws.
    So traffickers are able to lure them here to the United 
States, and then basically enslave them to do a variety of 
different things, whether it's involved in the sex trade or 
it's involved as laborers. They basically lure them here and 
then entrap them once they have them here and are able to 
control their lives.
    Mr. Rubio. Their visas are linked to a specific employer, 
right? Basically that--whoever it is they brought them in to 
work for?
    Mr. Andres. I believe that's true. But I don't know that 
specifically. But we certainly could look into that, Senator, 
and get back to you.
    Mr. Rubio. Now, in terms of once you find a victim, or a 
witness, or both, how hard is it to get them to cooperate if--
for example depending on their status in the country, their 
fear of family abroad, and what kind of measures have you 
looked at? Because one of the things I've read about is once 
you identify a victim, the victim is probably very insecure 
about their own status, their own ability--kind of where they 
stand on this whole thing and where it's going to lead them.
    What's your sense of how hard has it been to get victims to 
become witnesses, how--and to become reliable witnesses and 
to--cooperative ones as a result of two things--number one is 
their status or their fear and number two is maybe their family 
abroad?
    Mr. Andres. So, let me say two things: One distinction with 
respect to dealing with victims in human trafficking cases 
are--they certainly have different status; that is, having gone 
through the ordeal of being a victim in those cases, there are 
additional challenges that we have to deal with. I think our 
law enforcement partners in the FBI and ICE and other agencies 
have developed an expertise in dealing with those victims.
    As for cooperating, again, that's not new to us. That's not 
a new struggle for people who've been involved in prosecuting 
organized crime cases. Obviously when we've done it 
domestically, whether it's an MS-13 gang or the Gambino family, 
there are always individuals who are afraid of retaliation by 
those organized crime groups. That's why things like the 
witness protection program have been a vital part of our fight 
against organized crime, and there is a new proposal that will 
extend that internationally. So we can use some of the tools 
that we already have and have been using to fight organized 
crime in the context of human trafficking, to provide a safe 
and secure location for people so that they can have the 
confidence to go into court and testify against those involved 
in these crimes.
    Mr. Rubio. I think my last question is, with regards to the 
groups that are actually conducting this, obviously we--the 
transnational--the big groups with the brand names, are the 
ones we know a lot about. But there's some emerging evidence of 
some smaller scale groups, for lack of a better term mom-and-
pop, family-run operations that are a handful of family--I 
mean, I've read anecdotally; maybe I'm wrong--but I've read 
anecdotally there's a number of smaller scale operations where 
it's really three or four people.
    How--do they present a different challenge in prosecuting 
and identifying, number one? And number two, is there a 
specific kind of trafficking that they're more involved in 
than, say, the bigger transnational groups?
    Mr. Andres. There is no question that there is a change in 
organized crime both domestically and internationally, that 
there are emerging groups, that are smaller groups. They don't 
necessarily have household names.
    Luckily under our racketeering laws, you don't have to have 
a name or be a recognized group to be charged under 
racketeering because we can charge you with being an 
association in fact. So, if there are a group of individuals, 
even if it's a family organization or a family group, we can 
charge them together as an enterprise. Some of the legislative 
proposals that we have add state law crimes as slavery and 
other related human trafficking offenses as RICO predicates. So 
we're able to attack them with our racketeering laws.
    So the updates in the law will address that and, again, I'm 
not sure that the challenge--there are some different 
challenges, but to the extent that we can use our racketeering 
laws, that's helpful and, again, we have had some success in 
doing that. Our civil rights prosecutors have been working with 
our organized crime prosecutors to bring RICO cases. There was 
recently a series of brothers who were charged in Philadelphia 
with importing victims, and we were able to charge what was 
basically a family-run operation with importing victims for the 
purposes of human trafficking.
    So, again, we do need to update our laws, but some of the 
past strategies that we've used for organized crime, we're able 
to adapt those, together with the new legislation, we believe 
we'll be able to be successful in prosecuting these groups.
    Mr. Rubio. Thank you very much for your time today and your 
testimony. We appreciate it. Thank you.
    Mr. Andres. Thank you.
    Mr. Rubio. I guess our next witness is a Mr. Piero Bonadeo.
    How are you? Give you a few minutes to set up. Thank you 
for coming today.

  PIERO BONADEO, DEPUTY REPRESENTATIVE TO THE UNITED NATIONS 
              OFFICE ON DRUGS AND CRIME, NEW YORK

    Mr. Bonadeo. Thank you. Thank you for inviting the UNODC 
and for allowing us to bring some international perspective to 
this important discussion.
    On behalf of the United Nations Office on Drugs and Crime, 
a sincere thanks to the Commission on Security and Cooperation 
in Europe for inviting me to speak. The cooperation spirit of 
the Commission as well as the one of the Organization for 
Security and Cooperation in Europe has often supported the 
United Nations Office on Drugs and Crime and the United Nations 
Global Initiative to Fight Human Trafficking.
    Human trafficking is a truly global phenomenon and a crime 
which affects nearly every part of the world, whether as a 
source, transit or destination country. According to the United 
Nations Office on Drugs and Crime Human Trafficking Report, 
released in 2009, victims from at least 127 countries have been 
identified, and this is estimated that the more than 2.4 
million people are being exploited by criminals at any given 
time.
    More than a decade after the adoption of the protocol to 
prevent, suppress and punish trafficking in persons, especially 
women and children, supplementing the United Nations Convention 
Against Transnational Organized Crime, the Palermo Convention, 
the largest majority of countries have criminalized most forms 
of human trafficking in their legislation. Nevertheless, the 
use of such laws to prosecute and convict traffickers remains 
limited. In 2009 ``Global Report on Trafficking Persons,'' for 
instance, two out of every five countries covered in the report 
had never recorded a single conviction for human trafficking 
offenses.
    The demand of trafficking victims, especially those related 
to sexual exploitation, remains high, particularly in Europe. 
According to the United Nation Office on Drugs and Crime 
Organized Crime Threat Assessment, the majority of the victims 
detected in Europe come from the Balkans and the former Soviet 
Union, including countries such as Romania, Bulgaria, Ukraine, 
the Russian Federation and the Republic of Moldova. With regard 
to victims originating in South America, mostly from Brazil, 
they are being sent to destinations such as Spain, Italy, 
Portugal, France, the Netherlands, Germany, Austria, and 
Switzerland. African victims are sourced mainly in West Africa 
although North African victims seems to be increasing. Finally, 
Asian victims are mainly originating in Thailand; mostly 
recently Chinese, Vietnamese and Cambodian victims are also 
increasing.
    Traffickers remain using deception and coercion as the main 
instrument to recruit victims. As recent trend, women seem 
notably only involved in recruiting other women, but also 
playing the role of guardians in the countries of destination 
of victims. Another crime is that, in the case of Europe, the 
perpetrators are frequently not nationals of the country where 
they operate, but often national of the same countries as their 
victims.
    Distinguished Commissioner, cooperation is fundamental to 
combat the exploitation of women, children and men by human 
traffickers. With the outcome of our own efforts to gather 
information from member states, trafficking in persons for 
forced labor is the second most reported form of exploitation. 
But we share with all of you a concern that this form of 
trafficking is less frequently detected and reported than 
trafficking in persons for sexual exploitation. Labor traffic 
just until recently was started to be taken into consideration 
by the world community. Prosecution and criminalization of this 
particular type of trafficking also needs to be set in 
practice.
    UNODC is helping to shine a powerful light on this crime. 
Working with others, in particular the Organization for 
Security and Cooperation in Europe, we are developing clear 
strategies to meet government and civil society concerns. In 
doing so, UNODC brings a unique criminal justice approach. As 
the guardian of the United Nations Convention against 
Transnational Organized Crime, we have ready-made legal 
framework for international cooperation and the prevention of 
human trafficking. Thanks to the convention, police no longer 
have to stop at frontiers while criminals cross them 
frequently.
    We should also not forget how human trafficking is related 
to instability. When social and political upheaval exists, as 
in North Africa at present, our work is even more important in 
such turbulent and disordered regions.
    Trafficking in human beings is one of the most lucrative 
forms of organized crime, estimated to generate 32 billion U.S. 
dollars in gross proceeds each year. Criminal assets arising 
from this grave violation of human rights and fundamental 
freedoms may be invested in legitimate and criminal activities, 
challenging economic security and fueling corruption and 
undermining the rule of law.
    In a bid to answer these questions, UNODC has developed a 
database of human trafficking case law to provide immediate 
public access to officially documented instances of this crime. 
The database contains details of the nationalities of victims 
and perpetrators, trafficking routes, verdicts and other 
information related to prosecuted cases around the world. As 
such, it provides not only statistics on the number of 
prosecutions and convictions, but also the real-life stories of 
trafficked persons as documented in the courts.
    A little over a year ago the General Assembly passed by 
consensus the United Nations Global Plan of Action to Combat 
Trafficking in Persons; promoted universal ratification of the 
United Nations Convention against Transnational Organized Crime 
and the Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children, as well as other 
relevant international instruments that address trafficking in 
persons and reinforce the implementation of existing 
instruments against trafficking in persons and building on the 
relevant subregional, regional and cross-regional mechanisms 
and initiatives.
    An important operationalization of the global plan of 
action and another mechanism promoting the right to an 
effective remedy for victims of trafficking is the United 
Nations Voluntary Trust Fund for Victims of Trafficking in 
Persons, Especially Women and Children, launched last November 
in New York. The fund, managed by UNODC, provides humanitarian, 
legal and financial aid to victims of trafficking in persons 
through established channels of assistance, such as 
governments, nongovernmental organizations and international 
organizations.
    I would like to conclude the statement by thanking the U.S. 
government in supporting not only the actions of the United 
Nations Office of Drugs and Crime, but the international 
community at large. We have an excellent cooperation with the 
office of the Ambassador Louis C. de Baca, especially on human 
trafficking.
    Thank you.
    Mr. Rubio. Thank you for your testimony, and I actually 
read it before today as well.
    Mr. Bonadeo. OK.
    Mr. Rubio. Thanks for the audience and for repeating it to 
me.
    A few quick questions just on the role of the United 
States: How big a role does the United States play with the 
office, in particular with your operation? In terms of the 
funding and personnel and et cetera, how would you characterize 
the U.S.'s role today, and how important is it?
    Mr. Bonadeo. Well, in general, the U.S. government is one 
of the largest contributors to UNODC. Of course, it's 
contributing to support and implement projects that are 
addressing transnational organized crime in general; so I 
cannot tell you now how much of this money is going to projects 
related to human trafficking.
    Of course, the fact that there is a trust fund now. It's 
managed by UNODC, but is a U.N. trust fund that is basically 
supporting nations--mainly implemented by nongovernmental 
organizations around the world as a way of increasing the U.S. 
support to this kind of problem at multilateral level. So it's 
a relevant contribution, as I said, and is addressing 
transnational organized crime in general.
    Mr. Rubio. Now, when these organizations look to recruit, 
for lack of a better term, victims, what are the conditions--
what are the underlying conditions that create fertile ground 
for that? What are the markers of a society that tell you that 
they're vulnerable to this sort of activity?
    Mr. Bonadeo. Well, in the U.N.--United Nations Global Plan 
of Action Against Human Trafficking [sic], there are somehow 
recognition of the basic elements that are somehow fostering 
human trafficking and those are, of course, underdevelopment, 
poverty. And most recently we have been seeing that in 
countries that are also affected by instability due to-- 
political instability due to transnational organized-crime type 
of activities, in particular drug trafficking, also human 
trafficking is somehow increasing.
    I'm thinking about West Africa, for instance, as a region 
that is under attack by drug traffickers, and we have been 
seeing how there is an increase of smuggling of migrants and 
human trafficking coming from that region. So, to the 
traditional issues of underdevelopment and poverty, there is 
this new element of instability that organized crime 
organization are also exploiting for increasing their human 
trafficking activity.
    Mr. Rubio. So, when we look at source countries or source 
areas for victims, what you're basically looking at is a 
combination of the society where people don't see economic 
opportunities, deep poverty and despair, combined with a 
government that's either unwilling or unable to stop these 
predators from coming in and taking advantage of that?
    Mr. Bonadeo. Correct.
    Mr. Rubio. And then--so on that question of governments 
that are unwilling or unable to take care of it, how many of 
them--and you can identify them if you want to--but how big a 
problem do we have of nations that don't want to do anything 
about this because the transnational entities have corrupted 
the government and have basically allowed them to--or gotten 
them to look the other way?
    Mr. Bonadeo. Well, as I said, the protocol to the Palermo 
Convention is the most powerful tool that the international 
community has available for pushing those governments that are 
not responsive or are not doing enough to do something. A 
hundred and forty-six countries are parties to the protocol, 
but of course, being party doesn't mean that the protocol is 
fully implemented and the countries that are somehow trying to 
cooperate on this issue could also take advantage of the 
protocol itself. For instance, mutual legal assistance is one 
of the elements included in the protocol and is always helping 
in cooperation--making it possible--cooperation amongst 
countries on criminal justice aspect of human trafficking.
    Mr. Rubio. What I'm trying to figure out----
    Mr. Bonadeo. Yeah.
    Mr. Rubio. ----and you, because of your global view on 
this, is how many--obviously I think we know that there are 
countries that would like--we have that tier system that our 
State Department uses--I think there are countries that would 
want to improve if they had the resources to do it, and 
obviously there are mechanisms in place to help them. Is there 
any evidence of a significant number of either national 
governments or local governments in these places that are in 
essence cooperating with the traffickers and with these 
organizations because they've been corrupted, because they're 
being paid off, because of some mutually beneficial 
arrangement? I mean, is that a significant part of the problem?
    Mr. Bonadeo. Is there--well, we are going to release a new 
human trafficking report in 2012. The office is precisely 
working on this--on this study, so all those elements will be 
highlighted in the new study, and we are also working on the 
new UNODC global threat assessment, which is trying to 
highlight how organized crime in all its forms are somehow 
affecting the stability of countries.
    Of course, there is a link between instability, corruption 
and the inability of countries and governments to properly 
address this issue. Corruption is not only fueling human 
trafficking and activities of the international organized crime 
organizations; it is also fueling instability and, as I said, 
I'm always referring to West Africa because it's the most 
evident example of how corruption--and generated by 
transnational organized crime--is really basically failing 
governments of the countries.
    Mr. Rubio. And this is probably another question for some 
other advocates as well, but what I would ask is, are there any 
jurisdictions in the world--cities or countries--that are 
basically known--that we know are tolerating this or maybe even 
encouraging it? In essence, they're sending out the message 
that this is the place to come to find victims? Or this is the 
place to come to participate in these acts--and as particularly 
when it comes to sexual exploitation? Are there any countries 
in the world who are generally regarded as places where this is 
tolerated and maybe even encouraged as either a source or as a 
destination?
    Mr. Bonadeo. There are, but I--
    Mr. Rubio. --find them? Like who would--and maybe you don't 
want to tell me, but how do I----
    Mr. Bonadeo. Maybe if you re-read the report of the U.S. 
government on this issue, you can find some--
    Mr. Rubio. OK.
    Mr. Bonadeo. But, as the U.N., we are not really pointing 
the finger at over one country or another; we are looking more 
at the regional level--this phenomenon from the regional point 
of view and the route of traffickers. So there are.
    Mr. Rubio. The last question is, I would imagine that 
awareness is a big--if most people knew that what they were 
being recruited in--not most people, but if anyone knew that 
they were being recruited into slavery via forced labor, sexual 
exploitation, they wouldn't go. So obviously, they're being 
deceived.
    In addition, as a society, if everyone knew the signs of 
this, people would understand it, would recognize it and call 
it out. And I think that's true for some governments, that if 
they had the ability to recognize this stuff or were sensitive 
to it--a lot of this is just an issue of awareness. It's hard 
to believe that this is happening. It's hard for people to 
accept that.
    Well, how much of a challenge is that awareness aspect of 
it around the world? Clearly, in a society like the one that 
you live in or I live in with massive number of communications 
operations, news 24 hours, multiple newspapers, more news than 
you ever want or need, it's one way to create awareness for 
these issues, but I would imagine, especially in many of these 
source countries, the fact that this even exists is hard to 
disseminate and hard to explain to people. I mean, is that an 
accurate assessment? And what strategies are there in place to 
overcome that?
    Mr. Bonadeo. At multilateral level? Well, first of all, 
awareness is essential. And raising visibility around this 
issue is even more important, especially in countries of 
source. At multilateral level, we are running a global campaign 
called the Blue Heart Campaign, which is somehow raising 
visibility and also bringing to the potential victims what are 
their rights and how they can somehow avoid a certain situation 
or detect in advance being in certain situation that are then 
leading them to be victims of human trafficking.
    So in any of the UNODC projects that are addressing the 
human trafficking around the world, there is also a component 
on awareness, especially in the country of Africa and 
especially for projects implemented in Southeast Asia. So it's 
there, the message sometimes is well received; sometimes it's 
not received. So there is a huge, huge effort that this--should 
still be done on this issue.
    Mr. Rubio. Thank you very much for your work and for your 
testimony.
    Mr. Bonadeo. Thank you.
    Mr. Rubio. We appreciate it. Thank you.
    Mr. Bonadeo. Thank you so much. Thank you so much.
    Mr. Rubio. And I think our last witness today is Ms. 
Martina Vandenberg, who is the counsel for Freedom Network USA.

 MARTINA VANDENBERG, PRO BONO COUNSEL, THE FREEDOM NETWORK USA

    Ms. Vandenberg. Thank you very much, Senator Rubio. It's an 
honor to appear before you today. I would like to start by 
thanking you for your leadership in this area in human 
trafficking, particularly your work on the Trafficking Victims 
Protection Reauthorization Act. It's an honor to appear this 
morning before the Helsinki Commission, and I appreciate this 
invitation today to testify.
    You and Chairman Smith have been particularly strong in 
your fight against all forms of human trafficking, not just 
trafficking for forced prostitution, and that is very, very 
much appreciated by the organizations in the advocacy 
community. I was particularly heartened to see the hearing 
before this committee in May on forced labor.
    Over the years, the Helsinki Commission has steadfastly 
fought to keep the view, to keep the focus on the victims of 
human trafficking. And it's that perspective that I hope to 
bring to bring to you today.
    I lived in Russia for four years in the fight against 
violence, against women and trafficking, and my favorite word 
that I learned in Russia was ``konkretenosti,'' so I'll be very 
concrete today. I've spent 17 years in the fight against human 
trafficking, both as an activist and as an attorney. I 
currently serve as pro bono counsel to the Freedom Network USA, 
which is a coalition of 31 nongovernmental organizations and 
leaders providing services to and advocating for the rights of 
trafficking survivors here in the United States. The Freedom 
Network was created in 2001, immediately following the 
enactment of the Trafficking Victims Protection Act.
    I've submitted lengthy testimony for this hearing, and I'd 
ask that that lengthy testimony be placed in the record, but 
I've changed my comments to fit the time allotted this morning. 
And I'd just like to highlight three organized crime trends 
that have been identified by advocates in the field, and also 
three strategies for combating this grave human rights 
violation. And then, finally, I'll provide some concrete 
recommendations to the Commission.
    So trend number one that I'd like to focus on is that human 
trafficking is not only organized crime, it's what we might 
call disorganized crime. Often today, in the United States, we 
see human trafficking conducted by small groups operating 
independently. In the words of Florrie Burke, a Freedom Network 
leader and one of the leading experts on human trafficking in 
the United States, quote, we are seeing more family-run 
operations and small criminal networks. It is not the old 
definition of organized crime, but it is just as dangerous.
    Take the Carreto case, for example. In 2008, a diminutive 
grandmother from Mexico pled guilty to sex trafficking for her 
role in a family-run gang based in Tenancingo, Mexico. 
According to the indictment, two of Ms. Carreto's sons and an 
associate used, quote, physical violence, sexual assault, 
threats of harm, deception, false promises and coercion to 
force the women into forced prostitution in the United States.
    The traffickers brought impoverished women from Mexico, 
women and girls. They did so for more than a decade before they 
were stopped by the Department of Justice. And in some cases, 
the traffickers approached the young women in their villages 
and claimed that they had fallen in love with them, tricked the 
women, in some cases, impregnated them, and then held the 
children back in Mexico as essentially hostages.
    These organized groups are small and opportunistic and they 
can be incredibly brutal. But that said, they don't have to 
rely on extreme violence. Often, the threat of arrest, 
detention and deportation by U.S. law enforcement is enough to 
hold victims in servitude. Threats to family members and 
especially to children in the country of origin often compel 
the victims' compliance.
    So let me move to the second trend that we've seen in the 
field, trend two: Where are the prosecutions?
    According to the State Department's Trafficking in Persons 
Report, in 2010, there were just 6,017 prosecutions and 3,619 
convictions. Those aren't statistics for the United States; 
those are statistics for the entire world. In the United 
States, in the same year, 2010, there were just 103 federal 
prosecutions of 181 defendants, with 141 convictions. Now, in 
light of the State Department's own estimate, that there are 
between 14,500 and 17,500 trafficking victims brought into the 
United States for forced labor and forced prostitution every 
year, 103 prosecutions is appallingly low. In Europe, in 2010, 
there were 2,803 prosecutions resulting in 1,850 convictions.
    Again, these numbers should give us pause, because they 
indicate that traffickers, whether they are members of 
international criminal enterprises or syndicates, or solo 
practitioners like so many of the traffickers I have sued as a 
pro bono attorney here in the United States--families, 
husbands, wives, diplomats who have brought individuals into 
the United States and held them in forced labor--these 
individuals enjoy near-complete impunity, and only a tiny 
fraction of the prosecutions and convictions that have taken 
place have been for forced labor.
    Prosecutors are focusing on low-hanging fruit. They're 
bringing prosecutions for sex trafficking. In Europe, for 
example, of that enormous number, 2,803 prosecutions, only 47 
were for forced labor. The rest were for forced prostitution, 
trafficking for forced prostitution.
    So let me turn now to trend number three, which is, 
organized crime feeds on corruption.
    Corruption is absolutely essential to traffickers' success. 
I have testified before this Commission in the past about the 
concrete cases of corruption that my colleagues and I at Human 
Rights Watch documented in Bosnia and Herzegovina.
    As reported in the Human Rights Watch publication, ``Hopes 
Betrayed: Trafficking of Women and Girls to Post-Conflict 
Bosnia & Herzegovina for Forced Prostitution,'' corrupt police 
officers participated directly in trafficking. Some of the 
police officers moonlighted as guards in brothels holding 
trafficked women, helping to enforce their enslavement. 
Traffickers provided pay-offs to local police in the form of 
cash and free sexual services from the trafficked women 
themselves. This was all in exchange for protection from raids. 
Every time there was going to be a raid, the brothel owner 
would get a call and a warning. The International Police Task 
Force would arrive on the scene, and the women would all be 
holding their passports. They had been instructed on exactly 
what to say. All of this was made possible through official 
corruption.
    Corruption and organized crime and, indeed, those organized 
criminals engaged in trafficking have a symbiotic relationship. 
And yet corruption is one of the most under-reported elements 
of human trafficking.
    But for the victims, it is one of the most fundamental 
elements because corruption is the backdrop to all of the 
trafficking-related exploitation that they experience in the 
United States. The women and children and men who are 
trafficked into the United States fear that police officers are 
simply in cahoots, in business with the traffickers, that 
judges can easily be bought off and that prosecutors would 
never zealously prosecute a trafficker. These beliefs are 
common among the victims that we confront every day at the 
Freedom Network, at the member organizations. Many of the 
people we deal with, many of the victims come from countries 
where corruption is utterly rife. And they assume that the 
United States is no different. Indeed, that's what the 
traffickers have told them.
    The traffickers have told them time and time again that 
once they are captured by U.S. law enforcement, they'll be 
detained, they will be prosecuted, they will be deported. Some 
have been told that they will disappear. For many of our 
clients, a so-called rescue by Immigration and Customs 
Enforcement is not a rescue. For them, it is the culmination of 
all the horror stories that they have been told by the 
traffickers. It is in their eyes an arrest. Victims from 
countries where justice is bought and sold on a daily basis see 
little hope of escape; they see little hope of justice; they 
see little hope of prosecution. The traffickers stoke and 
exploit these fears, telling them that the police are actually 
on their side, that the police will help the traffickers. This 
corruption silences the victims and it guarantees impunity.
    So let's turn now to the strategies. The second portion of 
the hearing is, strategies for combating human trafficking.
    So strategy one, and this is essential: Protect the victims 
and the witnesses. Trafficked men, women and children arrive on 
the Freedom Network member organizations' doorsteps in very 
different ways. Some have come through good Samaritans; some 
have come through law enforcement; others find our 
organizations through faith-based communities. But no matter 
how they find the Freedom Network member organizations, these 
victims have several things in common. First, they are highly 
traumatized. Second, they are utterly terrified. And third, 
they are concerned most about their family members back home in 
the country of origin, particularly their children. A victim of 
trafficking who is not safe cannot cooperate. In the face of 
threats from the traffickers, she cannot testify against the 
trafficker.
    Now, the Trafficking Victims Protection Act provides tools 
to protect the victims, but these tools are grossly, grossly 
underused. One of the key building blocks here in the United 
States is called continued presence. It's a temporary form of 
immigration relief available only through an application by 
federal enforcement officer. Continued presence, or CP, permits 
victims of trafficking to remain in the United States during a 
criminal investigation without fear of deportation. But the 
number of victims receiving continued presence in the United 
States has utterly plummeted. According the State Department 
Trafficking in Persons Report in June 2011, 299 victims 
received this very basic form of protection in 2009. But in 
2010, that number dropped to 186.
    It is not only victims of trafficking who need protection; 
it is, indeed, their families. In the Carreto case, the forced 
prostitution case that I mentioned earlier, the traffickers 
and, in fact, the grandmothers--the mothers of the actual 
traffickers operating in the United States--held the victims' 
children hostage. According to Suzanne Tomatore, an attorney 
and co-chair of the Freedom Network, Russian traffickers 
currently operating in New York routinely terrify their victims 
by bragging about links to organized crime back in the Russian 
Federation. Family members, these women are told, will not be 
safe unless they continue to work in strip clubs, they continue 
surrendering all of their earnings.
    So these cases, I think, speak very poignantly to the need 
to protect not just victims in the United States where, I would 
argue, we are falling down on the job, but also their family 
members abroad. Family members should be paroled into the 
United States. The categories for derivative status--because, 
again, trafficking victims can get special visas known as T 
visas, and their relatives, their very close relatives, can get 
T-derivative--T-derivative visas--those lists, those categories 
of individuals who are able to get T-derivative visas should be 
expanded.
    Now, strategy number two--and this has been raised, I 
think, in the prior testimony: Watch not just the illegal 
immigration streams but the legal immigration streams, and in 
particular, watch the foreign labor recruiting organizations. 
Traffickers are enormously clever. They are very what the 
Russians would call ``gibka,'' which is flexible. They can 
adapt quickly.
    Consider the case of Askarkhodjaev, an Uzbek national. Now, 
Mr. Andres has already told you a bit about this case, so let 
me just fill in a few of the details. This Uzbek citizen and 
his co-conspirators lived in Kansas City. According to the 90-
page indictment in this first case as a RICO criminal case 
against a foreign labor recruiter, according to the 90-page 
indictment, the traffickers charged their victims between 3,000 
[dollars] to $5,000 to obtain temporary H-2B visas, employment 
visas to work temporarily in the United States. The victims and 
their families borrowed heavily to pay these enormous fees. 
They were told, however, by the traffickers, that if they left 
the exploitative labor conditions that they were held in in 14 
states in the United States and if they returned home, their 
families would have to pay an additional $5,000. The 
traffickers not only did not pay them wages, did not pay them 
overtime, but put them in apartment buildings, told them they 
had to live there, charged them astronomical rents, and when 
the victims actually did occasionally get a paycheck, sometimes 
that paycheck was for negative earnings because they owed the 
traffickers so much money.
    Now, in that case, there was a guilty plea, which brings me 
to the next point, another strategy for fighting human 
trafficking: Grab the money.
    Under U.S. law, restitution for trafficking victims is 
mandatory. That's 18 USC 1593, part of the TVPA. That's the 
law. But the reality that the advocates see in the field is 
quite different.
    In the experience of Freedom Network members, restitution 
orders are rarely collected. In some cases, the seized assets 
go directly to government coffers. In other cases, the U.S. 
Attorney's Office does not enforce the restitution orders 
aggressively. Restitution orders must be enforced. And in the 
first instance, it is the federal government's responsibility 
to do so.
    Now, why? Why does restitution matter? As we've all heard 
today, human trafficking is highly, highly lucrative. And 
seizing criminals' assets, to some extent, will deter their 
crime. Enforcing restitutions renders trafficking slightly less 
lucrative. And second, trafficking victims are owed these 
funds. This is money that was stolen from them. When asked 
several years ago how much restitution was actually ever 
distributed to the victims, the Department of Justice just 
responded that they didn't collect these statistics. The 
Department of Justice should track the amounts of restitution 
not just ordered by the courts but the actual amount of 
restitution that's collected. There is no higher use for 
organized crimes' ill-gotten gains than the restoration of the 
victims. So we need a scorecard: how much was ordered, how much 
collected.
    I have a host of recommendations, but I will just highlight 
a few this morning.
    First is increase the use of continued presence. The 
Trafficking Victims Protection Reauthorization Act had a 
section on lowering the standard slightly for continued 
presence. It is important to do so, so that law enforcement 
will use this tool to protect victims.
    Again, increase the categories available for T visa 
derivative status to permit more family members to come in the 
United States.
    Ensure that trafficking victims are not held in immigration 
detention, because some are.
    Increase the attention in the State Department's 
Trafficking in Persons Report to the role of corruption in 
human trafficking. This should include trafficking by state 
officials, including a focus on diplomats trafficking domestic 
workers for forced labor to the United States and around the 
world.
    Include fraud in foreign labor contracting as a RICO 
predicate act. As you've heard today, we see much fraud in 
foreign labor recruiting, and that is one of the main, main 
methods used today by traffickers.
    And then finally, request a Government Accountability 
Office study on the collection of criminal restitution orders 
in human trafficking cases.
    So I will leave it at that. I appreciate your concern and 
your focus on this issue. And I'm happy to entertain any 
questions.
    Mr. Rubio. Thank you. And what I want to focus today on my 
questions with you on is mostly the U.S. aspect of it. And 
here's why--not because the global one isn't--it's very 
important. I think in order for us to have credibility on this 
issue globally as policymakers, as a government, as members of 
this Commission, we have to say that we ourselves are employing 
the best practices. You have to hold yourself up to that 
standard, and you have to lead by example. And I think we 
should never underestimate what an example America can be.
    So what I want to explore with you a little bit is when you 
talked about the legal immigration streams. My guess is that--
and really, let's explore the forced labor aspect of it--not 
that the sex trafficking is not egregious and outrageous; it 
is, and we should focus on that as well, and it's probably 
coming through some of the same streams. But I think the one 
that--correct me if I'm wrong, but the one that probably gets 
less attention but is a big problem nonetheless is the forced 
labor one, because it can get nebulous. So my first question--
walk me through a little bit of what a typical--I would imagine 
the majority of these people that are in forced labor actually 
enter legally through one of these foreign worker programs. 
Walk me through what that experience is like for the trafficked 
person. You are in a society where somehow someone reaches out 
to you and says: There's jobs available in the United States. 
This is how much they will pay. I mean, walk us through how 
that works and how they navigate the existing legal immigration 
process to bring people here.
    Ms. Vandenberg. I can give you two examples. One is here--
right here in Washington, D.C. It's a case that I brought 
against a Tanzanian diplomat here.
    Mr. Rubio. And it's a typical--
    Ms. Vandenberg. It's typical--
    Mr. Rubio. Except for the diplomat part, is that pretty 
prevalent? The diplomat--
    Ms. Vandenberg. No, in Washington, D.C. and surrounds we 
see a large number of cases of trafficking by diplomats. So in 
this particular case the diplomat in Tanzania recruited a young 
woman to come to the United States and serve as a nanny. Got 
her a visa--an A-3 visa--a visa reserved for diplomats to bring 
over domestic workers to the United States. When she arrived in 
the United States, according to the complaint that we filed and 
according to testimony that she actually gave before the House 
Foreign Affairs Committee, he refused to pay her.
    He took her passport away and forced her to work 17 hours a 
day for free. She was not allowed to leave the house. She was 
cut off from her family entirely. Because her visa--that A-3 
visa--was completely bound to her employer, the moment she 
walked out the employer's door she was out of status. That is 
one of the things in all of these visa schemes that makes it so 
frightening for the victims. They understand that if they leave 
the trafficker they are immediately in undocumented status.
    Now, the other case I want to highlight is, again, this 
Uzbek trafficking case. We call it the Giant Labor Solutions 
case. In this particular case--and again the defendant 
Askarkhodjaev pled guilty in this case and was sentenced to 12 
years--the scheme there, according to the criminal indictment, 
was to find individuals already in the country with legal 
visas, whether they be J-1s or other--B-1, B-2--other visa 
status--and tell them, OK, we can get you an H-2B visa.
    And then they would file false statements to the Department 
of Labor to try and get a certification, because in order to 
bring someone in on an H-2B visa, you don't necessarily need a 
name--you don't need the name of the immigrant. What you need 
are a number of slots. And you need a labor certification 
stating that you can't find U.S. domestic workers willing to 
fill those slots.
    And so the indictment actually covered the failure to--
first fraudulent submissions made to the Department of Labor 
indicating that there were companies that needed these slots, 
and then also the indictment covered the traffickers switching, 
if you will--when the individuals came in on these H-2--H-2B 
visas or when they received H-2B visas, they were not put in 
the slots. They were not put in the jobs that had been 
certified by the Department of Labor. They were moved all 
around the country and put in different billets.
    So from the perspective of the victim--and I've seen this 
in many of the pro bono cases that we have brought on behalf of 
victims--from the perspective of the victim, he or she believes 
that he or she is coming to the United States legally. He or 
she will make significant amounts of money, certainly enough to 
pay off the labor recruiter, or to pay off all the debts that 
they've incurred at home and that the family has incurred at 
home. And they believe that they will have a normal job--that 
they will be able to leave during the day after work, that they 
will still have their passport, that they'll earn a salary.
    And so the shock when they come here is that they are bound 
to the employer, many times the employer takes their passport. 
They are held in squalid conditions. I had one case where a 
trafficking victim was forced to sleep on a kitchen floor like 
a dog. And they realize that if they leave they risk being 
undocumented. And they risk deportation. And they are 
terrified, particularly in this immigration environment in the 
United States.
    Mr. Rubio. Most of these victims are cut off from all 
information? I mean, do they a have access to television? Do 
they have any time, typically do they have any access to any 
news or information?
    Ms. Vandenberg. They have two things. One, if they have 
come in in the last few years, since the 2008 reauthorization, 
the Department of States consular officials now give a brochure 
to every single individual coming to the United States on a 
work visa. And that brochure is a--
    Mr. Rubio. In their native language?
    Ms. Vandenberg. They--it's not always in their native 
language.
    Mr. Rubio. OK.
    Ms. Vandenberg. It's been translated by the Department of 
State into about 11 languages. That brochure, however, which I 
think is the product of one of the finest public-private 
partnerships I've seen under the Obama administration--the 
Department of State cooperated with the nongovernmental 
organizations and together created this pamphlet. The pamphlet 
has the phone number on it for the national hotline and--so 
that National Human Trafficking Resource Center hotline is 
listed on the brochure. And there have been literally thousands 
of calls that have been prompted by people having the brochure.
    Now, in my experience, with the trafficking victims that I 
have represented in pro bono civil suits and from the cases 
that we've seen with Freedom Network members, the victims may 
be able to watch television to some extent, although in my 
experience--particularly with domestic workers--the moment they 
sit down to watch television they're told to get up and start 
working. You know, go iron the curtains. I mean, there's always 
some work that is created for them so that they don't have the 
opportunity to sit down.
    Their access to telephones is very limited. They're not 
generally allowed to call anyone. They're not generally allowed 
to have cell phones. And so that isolation makes it very 
difficult as well.
    I have seen cases where trafficking victims have come to 
the United States and have gone into, you know, debt to their 
employers, who refuse to pay them and then charge them all 
sorts of fees. And literally, those folks have contacted their 
relatives in the country of origin to ask those relatives to 
send money to them in the United States. The entire point of 
migration by people who become trafficking victims is to come 
to the United States to earn money so that they remit it home 
to their families and children.
    Mr. Rubio. This hotline that you have, has there been any 
effort to create public service announcements on news outlets 
that may reach migrant communities?
    Ms. Vandenberg. There has. And Mary Ellison, who's from the 
Polaris Project, which actually runs the hotline, is here 
today. There is, I think, a provision in the current draft of 
the TVPRA to increase the amount of publicity for the hotline. 
And the hotline is now posted quite significantly around the 
country. So there have been a large number and a growing number 
of calls.
    Mr. Rubio. I get--and well, who is it that runs the 
hotline?
    Ms. Vandenberg. Mary Ellison. Mary--
    Ms. Ellison. Yes.
    Mr. Rubio. Hi. Just a followup that I would have is, I 
think one of the things we could and should explore is whether 
some of the national networks and local affiliates that--
particularly broadcast--whether they're local stations, or 
broadcast, say, the Spanish networks or that broadcast to 
migrant communities would be willing to run public service 
announcements highlighting this issue. And in particular--
you're right. I mean, there are certain things that are not 
legal. If these things are happening to you, it's not normal, 
it's not legal, and this is a number you can call. Obviously it 
leads us to the--
    Ms. Vandenberg. The Department of Homeland Security has 
actually created two public service announcements, that are 
done both in English and I think they're also available in 
Spanish, that they're planning to blast across the country.
    Mr. Rubio. OK.
    Ms. Vandenberg. The one thing I would say about public 
service announcements is that it's very important to involve 
the nongovernmental organizations in the creation and vetting 
of those public service announcements. We recently sent a 
letter to the Department of Homeland Security with exactly that 
point, because the nongovernmental organizations have by far 
the greatest experience with victims of trafficking, and a much 
better sense, I think, of what will bring the message home to 
them.
    Mr. Rubio. Because I think you're dealing with this a lot, 
our existing visa programs--and obviously not to wade too far 
into another debate, which is politically problematic for a lot 
of people--but our existing visa programs, in and of itself, 
are bureaucratic, complicated, burdensome, difficult to 
navigate.
    To what extent is that utilized by traffickers? To what 
extent they figured out how to maximize it? And to what extent 
would reforms to those programs be devastating? In essence, are 
there specific reforms to those programs that we should 
explore, and what are they, to help make it harder for these 
trafficking operations to function?
    Ms. Vandenberg. Ironically, it is the difficulty of getting 
into the United States--it is the difficulty of getting a U.S. 
visa that traffickers exploit, because you need someone to help 
you. People sometimes will go to individuals they think are 
smugglers to help smuggle them into the United States because 
of, again, the very fierce immigration regime that the United 
States has, only to learn that those smugglers aren't actually 
smugglers. Those smugglers are actually traffickers.
    But let me give you an example of how traffickers are so 
incredibly nuanced and subtle in their crimes. I recently met 
with Paul Fishman, who's the U.S. attorney for New Jersey. And 
that office--the U.S. Attorney's Office in New Jersey brought a 
very important case out of Newark. It was a case of 20 or so 
young girls brought from Togo and Ghana--brought to Newark, 
forced to work in hair-braiding salons. They would spend 16, 17 
hours a day braiding hair. They got to keep none of the money 
that they earned. They were abused, again, held in conditions 
of squalor by the traffickers.
    In that case, the question is, how did those young girls 
get here from Togo? How did they get here from Africa? The 
trafficker, who was actually a very well-respected 
businesswoman, realized that people who had won the green card 
lottery in Africa couldn't necessarily come to the United 
States because even once you win the lottery it costs quite a 
lot of money to facilitate all of the paperwork that you have 
to do.
    So she, a very experienced businesswoman, said I will pay 
all those fees. I will help you with all the paperwork. All you 
have to do is bring in this young girl as your daughter. And so 
she paid off a number of individuals to bring in these 
children. The children were then turned over to the traffickers 
in the United States--part of the same network. And in this 
case, again, it was a family network--a wife, a husband and her 
son--who ran the entire network, which over time earned about 
$4 million in proceeds.
    And when those children arrived in the United States they 
were handed over to the network, and they were put in these 
hair-braiding salons.
    Mr. Rubio. Basically, the complexity and expense associated 
with it creates an environment conducive for middlemen. And 
oftentimes, the middlemen are traffickers who help you because 
they can front the money and help you navigate the complicated 
process, but once you're here you're at their mercy.
    Ms. Vandenberg. That's exactly right. And once you're here 
you may owe them money. And once you're here you are--you are 
constantly under the threat of deportation. Yeah.
    Mr. Rubio. You talked about how the CP process is not being 
used as often. Is there any reason that you've been told why 
that's the case? Or do we know why--I'm sure there's an 
explanation. I don't know what it is, but--
    Ms. Vandenberg. Yeah, we have racked our brains on this 
one. And the NGOs have asked precisely this question, because 
as a representative, as an advocate and an attorney for 
trafficking survivors, whenever I go to the Department of 
Justice and my client submits to an interview with the FBI or 
ICE or the Department of Justice, we always ask for continued 
presence. It's always sort of one of the very first things on 
our agenda, so that the client is safe and can continue to 
cooperate.
    My feeling is that the problem is threefold. One, the 
standard is too high. Right now the law enforcement authorities 
have to certify that someone is a victim of a severe form of 
trafficking. After one interview with the victim, it is very 
hard for a law enforcement officer to sign a declaration saying 
this person is a victim of human trafficking. And they're 
afraid to do so.
    The second is I think that law enforcement personnel still 
need more training. I think they are still convinced, many of 
them, that trafficking requires snarling dogs, barbed wire, 
being chained to a radiator and high levels of physical 
violence. And what we saw, and what we see now with human 
trafficking is that that level of violence is unnecessary.
    Indeed, the entire creation of the forced labor statute in 
the 2000 TVPA, if you go back and look at the legislative 
history--the entire purpose for passing that statute was to, in 
a sense, go past Kosminski, the lead Supreme Court case on 
involuntary servitude, and to show that a far lesser degree--
far more subtle forms of coercion, far more subtle threats, 
threats against third parties--that all of those things are 
enough. The problem, I think, is that law enforcement is still 
looking for rapes, sexual assaults, and snarling dogs. And 
those things are not always present. I think the third problem 
is there's a conflation of two different standards. There's the 
standard for CP, and the standard for CP should be available 
even after just one interview with the victim--
    Hello.
    Mr. Cohen. Steve Cohen of Memphis.
    Ms. Vandenberg. Hi, Commissioner Cohen. Welcome. Thank you.
    But the second standard is for T visas. When you file for a 
T visa, if you are lucky--and it doesn't happen very often--if 
you are lucky, you get what's called a Sup B--an I-914 Sup B, 
which is a certification by law enforcement that this is indeed 
a trafficking case. And I fear that law enforcement has 
confused these two standards. The standard for CP is much 
lower. It should be just that we have an investigation going 
on. The standard for a T visa is, this is a human trafficking 
case, and I certify that it is a crime. I fear that those are 
getting muddled.
    Mr. Rubio. And my last question is, the trafficking cases 
like the one you outline from Ghana and other places--they have 
to have markers. There has to be certain markers to a typical 
case that raise a red flag. I would imagine two things; you 
correct me if I'm wrong. Number one is, there are certain 
markers that you would see in a trafficking case that you 
wouldn't see in another clear-cut case, right? If someone's 
coming in to work at an elementary initial level, an ability to 
differentiate between those that clearly look legitimate and 
those that have some markers to it.
    And the other is, there's got to be some best practices. 
There's got to be organizations out there that we know are not 
traffickers and are involved in the process of recruiting 
foreign workers, and--as opposed to those we've never heard of 
before or are new to the marketplace or et cetera.
    So for lack of a better term, we know what the routes are. 
We know where the places are that people are coming through. We 
know what some of the markers are. Isn't there something to be 
said again, for lack of a better term, profiling some of these 
cases, flagging them, understanding cases that bring three or 
four elements that, at a minimum, require an additional level 
of scrutiny? You talked about the diplomat case, for example. I 
imagine there are legitimate diplomats that are bringing people 
in and are really working and doing OK, and then there are 
others that maybe we had bad experiences with.
    Is there a role for that in the initial process, in the 
initial visa process of trying to--I don't know if the word is 
profile, but certainly identify cases that raise certain red 
flags and maybe, at the front end, would provide more scrutiny 
and follow-up? And I know a lot of that is a matter of 
resources.
    Ms. Vandenberg. So let me start with the diplomats. There 
are diplomats who are what I would call repeat offenders. These 
are diplomats who bring in domestic worker after domestic 
worker after domestic worker. And what happened to all of the 
other domestic workers before who ran away or who went home 
without warning is a mystery. So I think that the State 
Department should definitely be looking for what I would call 
serial domestic worker visas.
    Mr. Rubio. How do we find who they are? How do I get the 
name of those people?
    Ms. Vandenberg. Oh. Call me.
    Mr. Rubio. OK.
    Ms. Vandenberg. But I think the State Department legal 
office actually, I think, has a sense. And because of the 
changes that you made in the 2008 TVPRA, that reauthorization, 
they are now required to track these things. And they are 
supposed to--at least to put red flags in the system so that 
individuals who are accused of exploitation on numerous 
occasions cannot get more visas, which is a good sign.
    In terms of the red flag and what we need to watch, I think 
you really put your finger on it when you said our immigration 
scheme is complex and difficult, and you need a middleman. We 
need to be looking at the middlemen. We really need to be 
focusing on labor recruiters. And one of the things that has 
recently happened--and a representative from the Department of 
Labor who appeared before this Commission in the May forced 
labor hearing talked about this a little bit--there are now 
regulations on the H-2A visas that indicate that you cannot, as 
a foreign labor recruiter, demand fees from the actual 
employees that you're bringing to the United States. Senator 
Cardin at that hearing asked a very important question, which 
is, how do you enforce that? How are you enforcing that?
    And so the nongovernmental organizations and the Freedom 
Network advocates and others put forward a proposal for 
enhanced regulation of foreign labor recruiters. Again, the 
nongovernmental organizations also put forward a proposal to 
make fraud and foreign labor recruiting a RICO predicate act so 
that criminal cases can be brought in these cases.
    It is highly troubling that there are labor recruiting 
agencies who are able to bring over not just hundreds, but 
thousands of individuals who then find themselves in situations 
of exploitation in the United States. And let's be fair: Not 
all of those situations of exploitation rise to the level of 
human trafficking, which is a high bar, but labor exploitation 
in the United States is rife.
    What I can say is that what I see, even with my clients, 
even with the victims of human trafficking I've represented pro 
bono, even with those individuals after they get T visas and 
everything in the United States is supposed to be terrific, I 
have seen, time and time again, those victims end up with 
exploitative employers who do not pay the minimum wage, who do 
not pay them overtime when they work overtime. And that level 
of labor exploitation that occurs in the grey economy, even for 
people with legal visa status, is very, very problematic.
    So the NGOs, the nongovernmental organizations have called 
for greater involvement by the Department of Labor and greater 
enforcement of labor exploitation laws generally because that 
will change the playing field. If labor exploitation is focused 
upon, then trafficking will be also more difficult to commit, 
or at least noticed more frequently.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you. I appreciate the work you do, and you 
do most of it pro bono, and you're to be commended and thanked 
by this Commission and by our government. But let me ask you 
about the labor exploitation. In what fields is that mostly 
taking place in?
    Ms. Vandenberg. It's a wide variety of fields. And if you 
look at the cases that the Department of Justice has prosecuted 
and should get tremendous credit for prosecuting, they run the 
gamut from, as I mentioned, hair-braiding salons in Newark, New 
Jersey, to nail salons all up and down the Eastern Seaboard, to 
agricultural labor in Florida, harvesting of beans; hotel work, 
hospitality work. There was one particularly egregious in South 
Dakota that was prosecuted by the Department of Justice where a 
husband-and-wife team brought in a group of workers from the 
Philippines, some of them with master's degrees in hospitality, 
and told them that they would be sort of running a hotel, and 
when they arrived, they were basically forced to work around 
the clock, many of them doing housekeeping services in the 
hotel rooms. So it really runs the gamut.
    Most of the people that I represent in civil cases, 
including a RICO civil case that we brought in the Eastern 
District of Wisconsin against what we called a family criminal 
enterprise, most of the people I've represented are domestic 
workers.
    Mr. Cohen. Is there any particular corporation that we 
might know about that has some dirty little secret that uses 
labor exploitation that you would like to reveal at this time?
    Ms. Vandenberg. I'm going to take the UNODC approach to 
this and not name any names. But I would say that the 
organizations that are doing labor recruiting, and they are 
certainly known to the Department of State and to the 
Department of Homeland Security, those organizations need to be 
monitored to make sure that the visa applications and the 
Department of Labor certifications that they are submitting are 
accurate and not fraudulent.
    I will say that there are number of companies that are now 
facing civil lawsuits. The Southern Poverty Law Center has 
brought a lawsuit on behalf--it's actually, I think, now been 
certified as a class action--brought on behalf of workers 
brought into the United States from India, including high-
skilled workers like welders and other skilled builders in the 
wake of Hurricane Katrina. And so the Southern Poverty Law 
Center is now pursuing a lawsuit that's been written up in The 
New York Times on a number of occasions for allegations of 
trafficking those workers to work in Mississippi and the Gulf 
states.
    Mr. Cohen. When people hear about human trafficking, I 
think they normally think of sexual exploitation and bringing 
in from Eastern Europe or wherever. What percentage of the 
problem is indeed in that capacity, as distinguished from 
ordinary labor?
    Ms. Vandenberg. You know, it's a very difficult question to 
answer, and the statistics on this are very problematic. But I 
would say that the best statistics on this are the 
International Labor Organization's statistics. And the 
International Labor Organization has said that there are 
approximately 12.3 million people around the world who are held 
in forced labor. Now, the ILO's understanding of that is that 
of that, some subset, 2.4 million, are held in conditions that 
they would consider trafficking.
    Now, when the International Labor Organization sort of 
breaks that down in terms of forced labor as opposed to forced 
prostitution as opposed to sexual exploitation of children, I 
think the numbers get a little bit murkier there. And part of 
the reason is because in many of the forced labor cases that we 
have seen with the Freedom Network members, particularly forced 
labor cases involving children, it is not just forced labor; 
many of the children are also sexually violated. So many of the 
children are raped and sexually abused when they're in 
situations of forced labor.
    So it's a difficult question to answer, but I think 
Congressman Smith has said in the past, as have many others, 
that forced labor is actually the majority of trafficking that 
we see around the world, number one. Number two, it is what I 
always call the caboose of the human trafficking train, because 
it's the most forgotten, the most ignored, the least discussed. 
And third, it is the least prosecuted. I mentioned some 
statistics, then: You know, of the 2,803 prosecutions in 
Europe, 47 of them were for forced labor.
    And so there is this danger, I think, in law enforcement, 
to go after the easy stuff. The easy stuff, in a sense, is 
forced prostitution and street prostitution. It's very easy to 
go after those cases. It's fairly obvious. It's our traditional 
view of forced--of--it's our traditional view of trafficking. 
As you say, it's the kind of trafficking that we read about in 
the newspaper. Forced labor is harder to find. It takes far 
more effort to find forced labor. And unfortunately, that kind 
of effort is not being expanded.
    Mr. Cohen. I did not have the opportunity to hear your 
opening statement, which I wish I could have, and I don't think 
it's in our books. So you may have answered this already, but 
are there recommendations that you have for laws that need to 
be tweaked in our country?
    Ms. Vandenberg. I included in my remarks 12 
recommendations, so a host of----
    Mr. Cohen. Oh, OK. Keep me busy.
    Ms. Vandenberg. ----a host of recommendations. They're not 
all legislative.
    What I would say is, the Freedom Network members have been 
making the rounds in meeting with many, many members, both of 
the House and the Senate, including Senator Rubio's staff, to 
talk about the Trafficking Victims Protection Reauthorization 
that is up this year. And the members of the nongovernmental 
organization communities really feel that this reauthorization 
is enormously important.
    So the current legislative ball that we have our eye on is 
the TVPRA and the importance of passing the TVPRA, which has 
some elements that we asked for and some elements that we did 
not--that we requested and did not get. So, for example, the CP 
changes to protect victims, those are in the House version; 
they're not in the Senate version. The foreign labor recruiting 
provisions that had been requested were in the House bill but 
now have been stripped out. The Senate bill includes a request 
for a GAO study to look at foreign labor recruiting. So at a 
minimum, I think the GAO study should go forward. But I think 
the NGO community feels very, very strongly that the TVPRA is 
sort of the most important piece of legislation that could pass 
in the near future.
    Mr. Cohen. Thank you very much for your time and for your 
work, and I appreciate it. And Senator Rubio, thank you for 
your time. I yield back.
    Mr. Rubio. Thank you for your testimony. Thank you all for 
being here. And the Commission is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                          A P P E N D I C E S

 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    I'd like to welcome everybody today to the Helsinki Commission 
hearing on human trafficking and transnational organized crime. This 
hearing is part of the Commissions long standing efforts at examining 
this modern day scourge in all its facets. I'd like to thank my 
esteemed colleagues here with me at this hearing, especially Senator 
Rubio as a new Commissioner in his first Commission hearing.
    In 1998, I first introduced the Trafficking Victims Protection Act. 
One year later, as Chair of this Commission I held its first hearing on 
human trafficking. Today, I am proud to say that it has been 11 years 
since the original TVPA was passed--the most comprehensive and 
significant piece of anti-trafficking legislation the United States 
has. Soon, both the House and Senate will be debating its fourth 
reauthorization since it originally passed back in 2000 and each time I 
have worked to strengthen its protection for victims and punishment for 
traffickers.
    Our efforts are often informed by the combined work of governments, 
international organizations and civil society, all of which are 
represented at this hearing, in combating modern-day slavery. Through 
their outstanding work we have made it a point to continually draw 
attention to this issue, and we will not stop until slavery becomes a 
thing of the past.
    Unfortunately, human trafficking and organized crime have co-
existed for centuries. But whereas the slave in the 1800's would have 
to be traded under perilous conditions for the modern day equivalent of 
thousands of dollars, today with just the click of a button you can 
purchase somebody's life for just a couple of hundred, maybe less.
    Modern technology and a collapsing world economy have doubled the 
amount of people in bondage throughout the world as were taken from 
Africa 350 years ago. As scores of people search for a beacon of hope 
in developed societies, organized criminals from the ``under and 
upper'' world stand by to seize the moment, enslave the weak and turn a 
profit. This multi-billion dollar industry presents a threat to human 
security at all levels.
    Not only do countless men, women and children suffer at the hands 
of traffickers, but the enormous amount of profits made in this 
industry serve to corrupt officials at all levels. Former and current 
members of the security sector, including law enforcement and the 
military can be found in key roles in many trafficking rings. From 
corrupt police, to dishonest prosecutors, judges, and politicians, 
efforts are made to undermine the fight to end modern day slavery 
worldwide.
    Even as we've looked to discourage traffickers by adding provisions 
to our laws that promote long jail sentences, asset confiscation and 
sanctions to governments who fail to meet the minimum standards, the 
sheer profit gained by the exploitation of human beings now rivals that 
of the drug trade.
    Whereas drug traffickers must engage in extreme violence by 
murdering informants and engaging in war with criminal rivals to remain 
in control of their networks, human traffickers need only threaten 
their victims or their families with violent reprisals to remain in 
control of their slaves.
    Whereas drug traffickers have a commodity that can only be sold 
once, a human trafficker can purchase a slave and continually exploit 
them until he's made his money back. And after that it's all profit.
    With such high profits to be made and relative low risk, it is no 
wonder why more and more organized criminal groups are engaging in 
human trafficking.
    The growing ingenuity of organized criminal groups; a borderless 
world for crime; and the use of modern technologies, have made it 
increasingly difficult for law enforcement to gather data on the extent 
that transnationally organized criminals are involved in human 
trafficking.
    But we know enough to know that something has to be done before 
it's too late. We hope that our distinguished panel of experts can shed 
some light on this problem.
    Today we are joined by a panel of experts on transnational 
organized crime and human trafficking. Their combined expertise should 
paint us a clearer picture of organized crime's involvement in human 
trafficking and what we can do to help stop it. With us is Mr. Greg 
Andres the current Deputy Assistant Attorney General in the Crime 
Division where he supervises the Organized Crime Section at the 
Department of Justice. Mr. Andres comes to us with over a decade of 
experience working on organized crime issues.
    We are also joined by Mr. Piero Bonadeo, Deputy Representative for 
the United Nations Office on Drugs and Crime in New York. Mr. Bonadeo's 
testimony will bring the UNODC's years of expertise in combating 
Transnational Organized Crime. Finally we have, Ms. Martina Vandenberg. 
Ms. Vandenberg is a seasoned attorney with years of experience 
combating trafficking in persons, as well as human rights reporting in 
Bosnia and Herzegovina, the Russian Federation, Uzbekistan and Kosovo. 
All of which are countries of great interest to our Helsinki 
Commission.
    We look forward to your testimonies.
Prepared Statement of Hon. Benjamin L. Cardin, Co-Chairman, Commission 
                 on Security and Cooperation in Europe
    I would like to extend my thanks to the distinguished panel of 
experts present today at this hearing. There is no timelier topic than 
trafficking in persons, as Congress will soon debate the William 
Wilberforce Trafficking Victims Protection Reauthorization Act of 2011 
(TVPRA).
    The Helsinki Commission has been devoted to the fight against 
trafficking in human beings in the United States and internationally 
for more than 20 years. Now more than ever, as the world struggles 
through economic turmoil and traffickers take advantage of the 
impoverished and vulnerable, we must remain committed to this fight. In 
my capacity as Chairman and now Co-Chairman of the Helsinki Commission 
I contributed to the 2008 TVPRA. Additionally, I convened several 
hearings to galvanize U.S. government contributions to the Organization 
for Security and Cooperation in Europe (OSCE) in its efforts to combat 
this trend. The OSCE remains a leader among multilateral organizations 
in facilitating international coordination to end trafficking and we 
must better utilize its unique competencies.
    Today, millions of people want to escape their impoverished 
situation in search for a better life for themselves and their 
families. Unfortunately, traffickers know this and exploit their 
vulnerabilities. It's a sad reality when human life has been 
transformed into a marketable commodity to which unscrupulous criminals 
have turned to and yet receive lesser sentences than those who traffic 
drugs. This fact is most evident when you look at prisons throughout 
the world filled with drug traffickers in contrast to the few and 
declining number in international convictions for human trafficking, 
making trafficking in human beings a high-profit low-risk crime.
    Even as we build momentum and awareness to combat trafficking in 
persons, criminals have not slowed down their operations. They are 
finding new ways to avoid law enforcement, adapting their operations to 
the effects of globalization and exploiting modern technology to 
broaden the scope of their illicit enterprises. Without a doubt, the 
new age slave trade is a transnational crime that bears resemblance to 
its tumultuous history, yet finds new sophisticated ways to maintain 
its grip besides our most guided efforts.
    Whether it's major international and highly structured criminal 
organizations like the Russian or Albanian Crime Syndicates or loosely 
connected networks of specialized criminal entrepreneurs, trafficking 
in human beings is mostly the business of organized crime. The 
diversity in actors engaged in human trafficking demonstrates the 
complexity and danger of this heinous crime. It also demonstrates how 
many vile people out there are willing to enslave others for personal 
profit.
    Trafficking networks often run alongside other forms of organized 
crimes like migrant and drug smuggling, money laundering, fraud and 
corruption. Porous borders, corrupt officials and high unemployment 
rates are among the many factors that fuel this grievous crime.
    Our own backyards have been polluted by this scourge, as organized 
criminal gangs are engaging in prostitution rings using the internet to 
recruit and exploit women and children into a life of sexual slavery. 
High profile cases of labor trafficking have also demonstrated how 
complex this crime can really be. Labor trafficking rings have brought 
hundreds of legal migrants into our country under what seem like 
legitimate businesses. These criminal truly operate transnationally in 
such an organized matter, that they enslave their employees in front of 
our very eyes and we do not see it.
    Last month, the OSCE Office of the Special Representative and 
Coordinator for Combating Trafficking in Human Beings organized an 
expert seminar on leveraging anti-money laundering regimes to combat 
human trafficking. At this event experts and scholars alike, including 
some from United Nations Office of Drugs and Crime (UNODC), came 
together to ponder the emerging challenges of this transnational crime. 
Innovative efforts like this to increase our comprehensive response to 
trafficking and identification capacity are vital.
    The U.S. Government as well as the many multilateral organizations 
like the OSCE and the United Nations recognizes trafficking for sexual 
and labor exploitation as a threat to security and peace keeping 
efforts. The United Nations Convention against Transnational Crime and 
its Protocols and the recently released White House Strategy to Combat 
Transnational Organized Crime have both recognized this fact. It is 
essential that we enhance our political commitments in these venues to 
match the evolving trends of exploitation and counter the increasing 
sophistication of organized trafficking networks.
    I thank our accomplished witnesses for joining us today to help us 
formulate more effective strategies to address these new challenges. I 
look forward to their contributions.
  Prepared Statement of Hon. Marco Rubio, Commissioner, Commission on 
                   Security and Cooperation in Europe
    The Helsinki Commission has chosen to hold a hearing entitled 
``Human Trafficking and Transnational Organized Crime,'' to address the 
growing problem of human trafficking as part of organized crime in the 
United States and abroad.
    The United States is plagued by the issue of human trafficking with 
an estimated 17,000 new victims each year and with a global estimate of 
700,000-800,000 new victims. My home state of Florida is one of the top 
destinations in the United States for victims to be trafficked. While 
this modern slavery comes in many shapes and sizes, there has been an 
emergence of transnational organized crime groups engaging in this 
horrendous trade.
    Groups which have traditionally specialized in the drugs 
trafficking, arms trafficking, money laundering and fraud have expanded 
their operations to include slavery due to the lucrative nature of this 
industry. Human trafficking is estimated to create $32 billion profits 
annually, making it the second largest crime industry. Transnational 
organized crime groups recognize that unlike drugs or arms, human 
beings can be exploited, over and over again which results in larger 
profits.
    Since the original Trafficking Victims Protection Authorization of 
2000, the United States has been the global leader in combatting this 
modern day slavery. Each year the State Department releases their 
Trafficking in Persons Report that ranks countries all over the world 
by their efforts to fight trafficking in all forms. The report forces 
countries to take the battle against modern day slavery seriously and 
brings this crime to the international spotlight. I have joined 28 of 
my colleagues in cosponsoring the current human trafficking 
legislation, Sec.  1301 The Trafficking Victims Protection 
Reauthorization.
    While key to the government's efforts to fight modern day slavery 
is the structure provided by Sec.  1301, the fight against 
transnational organized crime groups who engage in human trafficking is 
not an easy one. There is no typical transnational organized group. 
Groups vary in size from complicated networks to loosely tied cells. 
Some of these groups may engage in numerous illicit activities while 
others specialize in human trafficking. This variety makes the battle 
to combat this issue even tougher.
    We face numerous challenges when combatting transnational organized 
crime including the lack of comprehensive law enforcement, poor 
international cooperation, lack of data, and lack of awareness on the 
subject matter. In particular, the crime of human trafficking is often 
difficult to prove and even harder to prosecute. Law enforcement 
officials must have special training to pursue these cases 
correctly.Today, the Helsinki Commission addresses the issues faced by 
the international community with fighting transnational organized crime 
groups who engage in human trafficking. The United States and other 
Operations and Security and Cooperation in Europe countries need to 
continue to be vigilant against in the fight against human trafficking 
and transnational organized crime.
Prepared Statement of Greg D. Andres, Deputy Assistant Attorney General 
         for the Criminal Division, U.S. Department of Justice
INTRODUCTION
    Mr. Chairman, Mr. Co-Chairman, and distinguished Members of the 
Committee: Thank you for inviting me to speak with you this morning 
about the threat posed by human trafficking and transnational organized 
crime, the efforts of the Department of Justice to address the threat, 
and steps Congress can take that will assist in these efforts. I am 
honored to appear before you on behalf of the Department of Justice.
    The fight against transnational organized crime is one of the 
highest enforcement priorities of the Department of Justice and the 
Administration. Together with the United States Attorneys' Offices and 
our many law enforcement partners, the Criminal Division investigates 
and prosecutes cases involving transnational organized crime all over 
the country, indeed, all over the world.
    Transnational organized crime refers to self-perpetuating 
associations of individuals who operate transnationally for the purpose 
of obtaining power, influence, or commercial gains, wholly or in part 
by illegal means. These organizations promote and protect their 
activities through a pattern of violence and corruption, including by 
insinuating themselves into the political process and becoming 
alternate providers of governance, security, and livelihoods to win 
popular support. In the process, transnational organized criminals are 
often assisted by willing facilitators, including lawyers, bankers, and 
business owners, who exploit their professional legitimacy to 
perpetuate and disguise illegal activity and profits.
    The convergence of threats posed by these groups is significant and 
growing. In July of this year, the Administration released its Strategy 
to Combat Transnational Organized Crime (``TOC Strategy''), which 
enumerated the threats posed by transnational organized crime to United 
States national security, including the following:

        1. Penetration of State Institutions. Transnational organized 
        crime's penetration of governments is subverting the rule of 
        law, democratic institutions, and transparent business 
        practices. The growing reach of transnational organized 
        criminal networks is pushing them to seek strategic alliances 
        with state leaders and foreign intelligence services, 
        threatening stability and undermining free markets.

        2. Threat to the U.S. and World Economy. Transnational 
        organized crime is increasing its subversion of legitimate 
        financial and commercial markets, threatening U.S. economic 
        interests and raising the risk of significant damage to the 
        world financial system.

        3. Growing Cybercrime Threat. Transnational organized criminal 
        networks are becoming increasingly involved in cybercrime, 
        which costs consumers billions of dollars annually, creates 
        risks to sensitive corporate and government computer networks, 
        and undermines worldwide confidence in the international 
        financial system.

        4. Threatening Crime-Terror Nexus. Terrorists and insurgents 
        are increasingly turning to crime to generate funding and 
        acquire logistical support.

        5. Expansion of Drug Trafficking. Despite demonstrable 
        counterdrug successes in recent years, illicit drugs remain a 
        serious threat to the health, safety, security, and financial 
        well-being of U.S. citizens.

    The TOC Strategy also identified Trafficking in Persons as a threat 
posed by transnational organized crime to the United States, noting 
that human traffickers target the trafficked person as an object of 
criminal exploitation, often for labor or sexual exploitation purposes, 
and that trafficking victims are frequently physically and 
psychologically abused. The Strategy noted that human trafficking can 
take place within as well as between countries.
    At the announcement of the TOC Strategy, Attorney General Eric 
Holder noted:

          Today's criminal organizations are increasingly 
        sophisticated. They know no borders. They threaten the 
        stability of our financial system and the promise of a 
        competitive marketplace. And their operations are putting far 
        too many American businesses, government institutions, 
        consumers, and citizens at risk.

    The TOC Strategy sets forth a whole-of-government response to these 
threats. It outlines several strategic objectives at the heart of the 
Administration's efforts to address this threat:
    <bullet>  the protection of Americans from the harm, violence, and 
exploitation of transnational criminal networks;
    <bullet>  breaking the economic power of transnational criminal 
networks and protecting strategic markets and the U.S. financial system 
from penetration and abuse by transnational criminal organizations; and
    <bullet>  defeating transnational criminal networks that pose the 
greatest threat to national security by targeting their 
infrastructures, depriving them of their enabling means, and preventing 
the criminal facilitation of terrorist activities.
    The Department of Justice is committed to the fight against 
transnational organized crime and we have enjoyed certain successes to 
date. Serious challenges remain and additional tools are needed. As 
part of the TOC Strategy, the Administration has proposed a number of 
important legislative improvements, which the Department believes could 
assist us in meeting these challenges and addressing the identified 
threats.
II. CURRENT SUCCESSES IN TRANSNATIONAL ORGANIZED CRIME
    The Department has made great strides in attacking transnational 
organized crime groups, particularly those with some physical presence 
or foothold in the United States. We have prosecuted groups involved in 
narcotics and narco-terrorism, kidnapping and extortion, and health 
care and other identity fraud crimes alike. Below are several key 
examples:

    <bullet>   Joint Colombian-United States Drug Trafficking 
Investigation: On September 2, 2011, the U.S. Attorney's Office for the 
Southern District of Florida announced that 34 individuals were charged 
in five separate indictments in an operation that targeted a Drug 
Trafficking Organization based in Bogota, Colombia that utilized U.S. 
registered aircraft to transport thousands of kilograms of cocaine from 
South America, to clandestine airstrips in Central America and the 
Caribbean region. The drug trafficking organization purchased U.S. 
registered aircraft using nominees, who in turn submitted false 
documentation to the Federal Aviation Administration to hide the 
identities of the South American drug traffickers who were purchasing 
the planes. The Colombian-based organization, which arranged for the 
aircraft to depart from South America, had ties to drug trafficking 
organizations in Mexico. During the course of the investigation, law 
enforcement seized 1300 kilograms of cocaine, $1.6 million in U.S. 
currency, and eight U.S. registered aircraft. The case is being 
prosecuted by a special unit within the Southern District of Florida 
that was established in February 2011, to prosecute the violent Bandas 
Criminales drug trafficking groups in Colombia.
    <bullet>  Armenian Health Care Fraud: In October 2010, the 
Department announced charges against 73 members and associates of an 
Armenian-American organized crime group, with ties abroad, in five 
states (California, Georgia, New Mexico, New York and Ohio) for various 
health care fraud-related crimes involving more than $163 million in 
fraudulent billing. The defendants were charged with engaging in 
numerous frauds, including sophisticated schemes to defraud Medicare 
and insurance companies by submitting fraudulent bills for medically 
unnecessary treatments or treatments that were never performed. As part 
of this prosecution, the defendant Armen Kazarian became the first 
``Vor'' or ``Thief-in-Law,'' convicted of racketeering in the United 
States.
    <bullet>  International Computer Hacking: In November 2009, charges 
were filed based on a successful FBI investigation into a sophisticated 
international computer hacking ring involving defendants from Estonia, 
Russia, and Moldova. Various defendants were charged in the Northern 
District of Georgia with hacking into a computer network operated by a 
credit card processing company and using sophisticated techniques to 
compromise the data encryption used to protect customer data on payroll 
debit cards. Ultimately, counterfeit devices were employed to withdraw 
over $9 million from more than 2,100 ATMs in at least 280 cities 
worldwide, including cities in the United States, Russia, Ukraine, 
Estonia, Italy, Hong Kong, Japan, and Canada. Remarkably, this loss 
occurred within a span of less than 12 hours. Through this 
investigation, the FBI uncovered a previously undetected hacking 
technique that compromised the bank's encryption system. This 
information was disseminated throughout the banking sector to prevent 
further losses. Five Estonian defendants have been arrested and charged 
in Estonia. One of those defendants was extradited to the United 
States. Additionally, one defendant in the United States and two 
defendants residing in Hong Kong were arrested for their involvement in 
this criminal enterprise.
    <bullet>   Armenian Power Takedown: In February 2011, federal 
prosecutors from the United States Attorney's Office for the Central 
District of California, the Southern District of Florida and the 
Criminal Division announced charges against more than 100 members and 
associates of Eurasian organized crime groups, in six indictments, in 
four cities. The arrests included more than 80 defendants from the 
Armenian Power group, who were charged with a wide variety of violent 
and fraud-related crimes. The alleged crimes included kidnapping, 
extortion, assault, witness intimidation, bank fraud, credit card fraud 
and drug distribution. AP's membership consists primarily of 
individuals whose heritage goes back to Armenia and other Eastern Bloc 
countries. AP is an international organized crime group that started as 
a street gang in East Hollywood, California in the 1980s.
    <bullet>   Operation Whirling Dervish: In July 2011, the Department 
announced charges resulting from a DEA narco-terrorism undercover 
operation, charging three defendants with conspiring to provide various 
forms of support to Hizballah, the PKK, and Pejak. Two defendants were 
arrested in Bucharest, Romania, where they were detained pending 
extradition to the United States; the third was arrested in the 
Republic of the Maldives. This investigation was supported by Romanian 
authorities who identified Kurdish PKK members that were selling heroin 
to support their terrorist organization. It also identified Iranian 
Pejak elements that were utilizing the drug trade to finance operations 
and Hizballah elements that were attempting to purchase military-grade 
weaponry. This investigation is continuing.
    <bullet>   Eastern European Money Laundering: In June 2011, a joint 
prosecution between the Criminal Division's Computer Crime and 
Intellectual Property Section and the U.S. Attorney's Offices in 
Chicago and Washington, D.C., resulted in a Romanian man being 
sentenced to 48 months imprisonment in the United States for his role 
in an international money-laundering scheme involving the creation of 
fraudulent online auctions. In a similar case handled by the Criminal 
Division's Organized Crime and Gang Section, a Bulgarian man was 
sentenced this September to 64 months imprisonment for his role in an 
auction scheme, which appears to have been orchestrated by a 
transnational criminal group based in Eastern Europe. Another 
individual, a Romanian citizen, was sentenced to 24 months imprisonment 
for his role in the same conspiracy, also in September 2011. According 
to court documents, in less than one year, the scheme netted more than 
$1.4 million for U.S. victims.
    <bullet>   Joint U.S.-Italian Mob Takedown: In March 2010 
prosecutors in Sicily and the U.S. Attorney's Offices for the Eastern 
District of New York and the Southern District of Florida arrested over 
twenty individuals on charges of obstruction of justice, extortion, 
concealment of assets, money laundering, drug trafficking, attempted 
homicide and other crimes arising from their affiliation with Santa 
Maria di Gesu, a Sicilian mafia family. The U.S. defendants 
subsequently pled guilty, with one defendant receiving a sentence of 48 
months and another receiving a sentence of 36 months.

    The Department has also achieved successes in the fight against 
human trafficking using the racketeering laws, as shown by these 
examples:

    <bullet>   Ukrainian Human Trafficking Ring: In October 2011, the 
Department secured convictions against two brothers for a racketeering 
conspiracy in connection with a human trafficking scheme that exploited 
young Ukrainian migrants. The defendants smuggled the victims into the 
U.S. through Mexico. The brothers confiscated their immigration 
documents and forced them through threats, assaults, sexual abuse, and 
debt bondage to work on cleaning crews in homes, stores, and offices 
without pay.
    <bullet>   Transnational Human Trafficking Enterprise: In May 2011 
an Uzbek national was sentenced to 12 years in prison for racketeering 
conspiracy involving the recruitment and exploitation of dozens of 
workers from Jamaica, the Dominican Republic, the Philippines and 
elsewhere, many of whom were recruited with false promises concerning 
the terms, conditions and nature of their employment and then compelled 
through threats of deportation and financial penalties to work in 
hospitality jobs in at least 14 states. Eight other defendants, 
including Uzbek, Moldovan, and U.S. national, were convicted in 
connection with the scheme.

    As is clear from many of the examples cited above, a key component 
of our transnational organized crime strategy has been forging 
successful and strategic partnerships with foreign law enforcement 
authorities. The example of Romania is instructive. A significant 
number of so-called ``phishing'' attacks targeting United States 
citizens originate in Romania and we have worked closely with 
authorities there to identify and prosecute those involved.2 As an 
important first step, several law enforcement agencies, including the 
Federal Bureau of Investigation, the United States Secret Service and 
the Drug Enforcement Administration, have employees stationed in 
Romania, who work side by side with Romanian law enforcement in an 
effort to target cyber-criminals and other organized crime. The results 
have been significant. Earlier this year, joint United States-Romanian 
investigations resulted in the arrest of over 100 organized crime 
related cyber-criminals in our two countries. Those arrests involved 
various schemes involving the fake sales of merchandise, including cars 
and boats, over the Internet to thousands of victims in the United 
States and elsewhere.
    Another important innovation critical to our efforts has been the 
development of the International Organized Crime Intelligence and 
Operations Center, or IOC-2, here in the Department of Justice. 
Building on our successful counter-narcotics work, IOC-2 brings 
together nine federal law enforcement agencies in a powerful center to 
share data and intelligence, both domestically and internationally, on 
organized crime investigations. IOC-2 greatly expands our abilities to 
spot patterns and coordinate investigations against transnational 
organized crime networks. IOC-2 also aids our attempts to identify 
forfeitable assets associated with international criminal activities 
and promote seizure and forfeiture judgments.
III. CHALLENGES TO GREATER SUCCESS
    Our work on transnational organized crime enforcement is far from 
over. While the threat is clear, the obstacles to successfully 
investigating, prosecuting and dismantling these networks are numerous. 
Transnational organized crime groups and the offenses they commit 
present significant challenges. As a point of comparison, it has been 
well documented that domestic organized crime syndicates employ tactics 
that create many roadblocks for law enforcement: layers of secrecy, 
corruption of officials, and fear and intimidation that silence 
witnesses. Despite these challenges, over the years, Congress and the 
Department of Justice have developed methods of attacking domestic 
organized crime to the point where our record of achievements is one of 
the federal government's great success stories. Transnational organized 
crime poses an additional dimension of challenges: while the effects 
are felt here in the United States, the perpetrators, witnesses and 
evidence reside abroad, often in jurisdictions unable or unwilling to 
cooperate with our investigative efforts.
    Take a few simple examples. Organized cyber criminals direct cyber 
intrusions from abroad that target United States citizens and steal 
their identities for the purpose of raiding bank accounts or placing 
fraudulent credit card purchases. Other organized criminals commit 
crimes abroad and launder and maintain funds in the United States, 
without ever traveling to our shores, and sometimes through the use of 
U.S. shell corporations.
    In each instance, the investigation and prosecutions of these 
organizations and crimes pose significant challenges. At a minimum, 
pursuing an investigation abroad is often time consuming and delays can 
be significant and undermine an investigation. Tracking down criminals 
abroad often requires the cooperation of foreign law enforcement 
agencies and even if we locate our targets, many of the investigative 
tools for gathering evidence are not available to us in an 
international context. In some countries, we cannot employ Title III 
wiretaps against the perpetrators, nor can we, in many cases, send an 
undercover agent to gather incriminating statements. The country's law 
enforcement agencies may not have the level of training or the 
necessary technology to implement the investigative steps, even if they 
are authorized.
    Arresting lower level members of the organization and persuading 
them to cooperate against higher level bosses is also extremely 
difficult and may require the approval and cooperation of foreign 
authorities, as well as navigating various domestic immigration and 
other laws. Other countries have domestic laws which ban the 
extradition of their own citizens to foreign countries for prosecution. 
In such instances, the only option may be for the foreign government to 
prosecute the target under their domestic laws, and convictions often 
result in lenient sentences. Still other targeted organized crime 
groups may have so penetrated the country's law enforcement entities or 
political leadership that the country will refuse to answer our request 
for assistance.
    These concerns are not hypothetical. The prosecution, or the 
attempted prosecution, of Semion Mogilevich makes this clear. 
Mogilevich is a powerful Russian organized crime figure and the head of 
an international criminal enterprise engaged in activities designed to 
penetrate and corrupt strategic sectors world-wide. He and his co-
conspirators were indicted by the U.S. Attorney's Office for the 
Eastern District of Pennsylvania in 2003 on racketeering, securities 
fraud and money laundering charges, yet remain at liberty. At the heart 
of the charged crimes was a sophisticated multi-million dollar scheme 
responsible for defrauding thousands of investors in the United States, 
Canada and abroad in the stock of a public company that was 
headquartered in the United States. The indictment alleges that, while 
residing in Eastern Europe, Mogilevich funded and controlled a criminal 
enterprise, comprised of individuals and companies in over twenty 
countries throughout the world, including corrupt accountants and 
auditors, and numerous United States shell companies which were used to 
conceal their involvement and to launder proceeds from the scheme. 
Despite committing crimes here, Mogilevich remains outside our reach 
and is believed to currently be residing in Moscow, Russia. He is 
currently on the FBI's Ten Most Wanted Fugitives List.
    The ability of transnational criminal organizations to generate 
vast sums of money is both their strength and a weakness. Criminal 
organizations are businesses, and like any business profit is their 
primary motivation. The wealth generated by today's drug cartels and 
other international criminal networks enable some of the worst criminal 
elements to operate with impunity while wreaking havoc on individuals 
and institutions around the world. Generating proceeds often is only 
the first step -criminals then launder their proceeds, often using our 
financial system to move or hide their assets and often with the help 
of third parties located in the United States. Indeed, international 
criminal organizations increasingly rely on these third parties and on 
the use of domestic shell corporations to mask crimes and launder 
proceeds under the guise of a seemingly legitimate corporate structure. 
We can use our asset forfeiture laws to take the assets away from the 
criminal organizations and dismantle their financial infrastructures 
but, as discussed below, the existing law needs to be modernized.
    When we turn our attention to the specific problem of human 
trafficking, we see these same challenges. Many of our human 
trafficking cases involve loosely affiliated networks of individuals 
engaged in the exploitation of human trafficking victims. These 
criminals tend to utilize smuggling pipelines and money laundering 
conduits operated by other criminal groups and whose services the 
traffickers procure for their own purposes. On occasion the human 
traffickers themselves belong to a larger organized crime group, as in 
the two examples I mentioned above. Either way, we face the same 
challenges in extending our investigation across borders and seeking 
cooperation from law enforcement authorities in other countries as in 
our other types of transnational organized crime cases.
IV. LEGISLATION
    There are important steps we can take to better address 
extraterritorial threats and the increasingly global reach of 
transnational criminal organizations. The Department of Justice 
together with our partners have developed a package of legislative 
proposals to ensure that federal law keeps up with the rapid evolution 
of organized criminal activity, including human trafficking. We need 
changes to our existing money laundering, asset forfeiture, narcotics 
and racketeering laws. Additional proposals recognize that in an 
increasingly global law enforcement environment, witness security and 
protection for foreign witnesses must also be available. One proposal 
in particular, extending criminal jurisdiction to vessels or aircraft 
owned by U.S. citizens or registered in the United States, would bring 
the U.S. into compliance with the Trafficking in Persons Protocol to 
the United Nations Convention Against Transnational Organized Crime. 
These proposals are outlined below.

    A. Anti-Money Laundering and Forfeiture Laws

    The TOC Strategy recognizes that criminals who commit their crimes 
overseas often launder and maintain their assets in the United States. 
Accordingly, a focal point of the Strategy is the Proceeds of Crime Act 
(POCA) a comprehensive money laundering and forfeiture proposal 
designed to address gaps in our current legal authority. Money 
laundering and forfeiture laws strike at the very core of transnational 
criminal organizations by preventing them from using our financial 
system to move and hide their money, and by depriving them of the 
profit and capital needed to operate their enterprises.
    POCA would update and clarify the current list of specified 
unlawful activities that are predicates for money laundering to include 
all domestic felonies except those specifically exempted, state 
felonies and federal misdemeanors that are included in the existing 
racketeering predicates, and any foreign crimes that would be felonies 
in the United States. The changes sought would also increase the scope 
and effect of anti-money laundering provisions in promotional money 
laundering, bulk cash smuggling, tax evasion, and money laundering 
through informal value transfer systems, and would clarify the 
application of the law to commingled funds and aggregated transactions. 
Finally, the proposal also extends wiretap authority for money 
laundering offenses, and it extends the extraterritorial provision for 
money laundering to non-United States citizens where their 
extraterritorial acts in violation of 18 U.S.C. Sec.  1956 cause an 
effect in the United States. These changes would fill in numerous gaps 
and omissions in our decades-old anti-money laundering laws and improve 
the ability to prosecute money launderers and to forfeit criminal 
proceeds and facilitating property.
    POCA also seeks to update our civil forfeiture capabilities. Civil 
forfeiture is a particularly effective tool in this regard as it 
enables prosecutors to forfeit the proceeds of crime even when criminal 
prosecutions of those involved are not possible. Thus fugitives, drug 
kingpins, and corrupt foreign officials not present in the United 
States cannot elude the reach of our enforcement entirely.
    POCA would enhance the government's civil forfeiture authority in a 
number of important ways. It seeks to expand the scope of civil 
forfeiture authority to include ``facilitating property,'' or property 
that enables crime to occur, for all money laundering predicates and 
broadens the categories of facilitating property that can be civilly 
forfeited in connection to drug offenses and alien smuggling and 
harboring. To better attack the financial infrastructures of these 
organizations through more effective financial investigations, the 
proposal provides increased civil forfeiture, administrative, and 
foreign bank record subpoena authority. It also would enable the use of 
classified information in civil forfeiture cases, which is critical in 
going after transnational criminal organizations that threaten our 
national security.
    Taken together, the changes will make our investigations and 
prosecutions against the financial operations of transnational 
organized crime groups much more effective. By taking their money, we 
take away these groups' reason to exist and ability to operate. We are 
committed to working with Congress to combat the use of shell companies 
to generate and move illicit money by requiring that those who form 
entities in the United States disclose beneficial owner information.

    B. Racketeering Provisions

    Second, the Administration proposes to modernize our most powerful 
anti-organized crime statutes: the Racketeer Influenced and Corrupt 
Organizations Act, or RICO, and the Violent Crimes in Aid of 
Racketeering statute, or VICAR. The proposed amendments to the RICO 
statute, 18 U.S.C. Sec.  1961, et seq., would clarify that RICO has 
extraterritorial application in cases where criminal enterprises 
operate at least in part in the United States, or where they commit any 
predicate acts in the United States, or where the charged pattern 
includes offenses that apply extraterritorially. Criminal organizations 
have expanded their activities to increase their power, influence, and 
wealth, availing themselves of new opportunities. The proposed 
legislation, therefore, expands the list of racketeering predicate 
crimes to include offenses that are prevalent in an increasingly 
interconnected world and engaged in by transnational organized crime 
groups, including economic espionage, computer fraud, aggravated 
identity theft, violations of the Foreign Corrupt Practices Act, health 
care fraud, illegal firearms trafficking, as well as a limited number 
of violations of foreign law.
    Specific to the issue of human trafficking, the proposed changes 
expand the list of RICO predicates to include state crimes of peonage, 
forced labor, slavery, and trafficking in persons, and adds section 
1594, relating to attempts and conspiracies involving peonage, slavery, 
and trafficking in persons.
    These proposed changes are important to address a number of 
recurring issues in organized crime prosecutions. In a number of 
instances, the government has been unable to charge the members or 
associates of a criminal enterprise with RICO because the underlying 
criminal activities were not listed as predicates. The new predicates 
are intended to fill these gaps. Amendments to the Violent Crimes in 
Aid of Racketeering (VICAR) statute, 18 U.S.C. Sec.  1959, are also 
recommended, including a provision which would provide for 
extraterritorial application in certain situations such as when the 
underlying statute criminalizing the violent act in question applies 
extraterritorially or when any part of the violation occurs within the 
jurisdiction of the United States.

    C. Witness Protection

    The Administration is also proposing legislation that fosters 
international cooperation regarding the relocation of witnesses giving 
testimony in criminal cases, and relatives and other persons close to 
them. Relocation is sometimes the only way to protect the security of 
such persons, and enhancing our ability to cooperate with foreign 
governments in these situations will greatly improve our ability to 
mount multinational operations against high-priority transnational 
organized crime targets.

    D. Extraterritorial Jurisdiction

    The Administration proposes criminalizing conduct occurring on 
vessels or aircraft owned by the United States or a United States 
citizen, vessels registered under U.S. or state law, and aircraft 
registered under United States law if such vessels or aircraft are 
outside the jurisdiction of any particular state. In the absence of 
such expanded jurisdiction, the United States would, for example, lack 
federal jurisdiction over a sex-trafficking offense committed on board 
a United States-registered vessel or aircraft located between two 
foreign countries. Our proposal would bring the United States into full 
compliance with the 2000 Transnational Organized Crime Convention, and 
in particular the Trafficking in Persons Protocol.

    E. Narcotics

    The Administration proposes to expand conspiracy liability when 
controlled substances are destined to the United States from a foreign 
country. Under our proposal, members of any conspiracy to distribute 
controlled substances will be subject to United States jurisdiction 
when at least one member of the conspiracy intends or knows that the 
drugs will be unlawfully imported into the United States. We are also 
recommending changes to sentencing policy for violations of the 
Narcotics Kingpin Designation Act. Such violations currently carry 
statutory penalties of up to 30 years' imprisonment and/or fines up to 
$5,000,000. Sentencing guidelines for these violations, however, do not 
yet exist. The Administration is recommending a congressional directive 
to the United States Sentencing Commission, proposed statutory 
language, and a proposed sentencing guideline to yield a sentencing 
range of 37-46 months for a first offender, absent adjustments or 
departures.
V. CONCLUSION
    Transnational organized crime and human trafficking present many 
new challenges for United States law enforcement. The investigations 
and prosecutions of transnational organized criminals groups are among 
the most difficult and complex cases in the Department. Even as we 
develop our cases and push the envelope of what our agents and 
prosecutors have tried in the past, the criminals continue to evolve 
rapidly, deploying new techniques and strategies to evade our nets and 
continue their illegal activities. It is important to ensure that 
federal agents and prosecutors are fully armed with the most 
comprehensive and up to date legislative and investigative tools to 
carry this fight across the globe and attack the criminals where they 
live. Only in this way can we protect our citizens, corporations, and 
property from those who would take them from us.

   Prepared Statement of Piero Bonadeo, Deputy Representative to the 
           United Nations Office on Drugs and Crime, New York

    On behalf of the United Nations Office on Drugs and Crime, my 
sincere thanks to the Commission on Security and Cooperation in Europe 
for inviting me to speak. The cooperative spirit of the Commission as 
well as the one of the Organization for Security and Cooperation in 
Europe (OSECE) has often supported the United Nations Office on Drugs 
and Crime and the United Nations Global Initiative to Fight Humane 
Trafficking.
    Human trafficking is a truly global phenomenon and a crime which 
affects nearly every part of the world, whether as a source, transit or 
destination country. According to the (UNODC), victims from at least 
127 countries have been identified, and it is estimated that more than 
2.4 million people are being exploited by criminals at any given time.
    More than a decade after the adoption of the Protocol to Prevent 
Suppress and Punish Trafficking in Persons, Especially Women and 
Children, supplementing the United Nations Convention against 
Transnational Organized Crime the largest majority of countries have 
criminalized most forms of human trafficking in their legislation. 
Nevertheless, the use of such laws to prosecute and convict traffickers 
remains limited. In the 2009 Global Report on Trafficking in persons, 
for instance, two out of every five countries covered in the report had 
never recorded a single conviction for trafficking offenses.
    The demand of trafficking victims, especially those related to 
sexual exploitation, remains high, particularly in Europe. According to 
the UNODC Organized Crime Threat Assessment, the majority of the 
victims detected in Europe come from the Balkans and the former Soviet 
Union, including countries such as Romania, Bulgaria, Ukraine, the 
Russian Federation, and the Republic of Moldova.
    With regard to the victims originated in South America, mostly 
Brazil, they are being sent to destinations such as Spain, Italy, 
Portugal, France, the Netherlands, Germany, Austria, and Switzerland. 
African victims are mainly in West Africa, although North African 
victims seem to be increasing. Finally, Asian victims are mainly 
originated in Thailand. Most recently, Chinese, Vietnamese, and 
Cambodian victims are increasing.
    Traffickers remain using deception and coercion as their main 
instruments to recruit victims. As a recent trend, women seem not to be 
only involved in recruiting other women, but also playing the role of 
guardians in the countries of destination of victims. Another trend is 
that in the case of Europe, the perpetrators are frequently not 
nationals of the country where they operate, but often nationals of the 
same country as their victims.
    The International Labour Organization estimated that the minimum 
number of victims trafficked for all purposes in Europe and North 
America was 279,000 in 2005. Considering this, UNODC estimated that the 
number of trafficking victims in Europe would be around 140,000 if 
about on victim in 20 were detected. Following this figure and assuming 
that these victims could produce an estimate of 50 million sexual 
services, at EUR 50 per client, the market would be worth approximately 
US$3 billion.
    Distinguished Commissioners, cooperation is fundamental to combat 
the exploitation of women, children and men by human traffickers. Let 
us start with the outcome of our own efforts to gather information from 
Member States: trafficking in persons for forced labour is the second 
most reported form of exploitation. But, we share with all of you a 
concern that this form of trafficking is less frequently detected and 
reported that trafficking in persons for sexual exploitation. Labour 
trafficking, just until recently, was started to be taken into 
consideration by the world community. Prosecution and criminalization 
for this particular type of trafficking also needs to be set in 
practice.
    We must also challenge the lack of visibility of trafficking in 
persons for forced labour. Too often, forced labour is hidden from 
public view. This may happen because the instances in which labour 
trafficking occurs, may not bring a direct physical r psychological 
damage to the person. A victim of labour trafficking can be someone who 
is made to work long shifts, being paid less than what was promised in 
their contracts, or with less or no benefits than the ones migrant 
workers are usually entitled to. Victims are often convinced by their 
foreign employers that those are the conditions they are legally 
entitled to, being deceived by them. Therefore, they do not often 
report this situation, unless their working conditions become 
unbearable.
    UNODC is helping to shine a powerful light on this crime. Working 
with others in particular the Organization for Security and Cooperation 
in Europe (OSCE), we are developing clear strategies to meet government 
and civil society concerns.
    In doing so, UNODC brings a unique criminal justice approach. As 
the guardian of the United Nations Convention against Transnational 
Organized Crime, we have a ready made legal framework for international 
cooperation and the prevention of human trafficking. Thanks to the 
convention, through cooperation, police no longer have to stop at 
frontiers, while criminals cross them freely.
    We should also not forget how human trafficking is related to 
instability. When social and political upheaval exists, as in North 
Africa at present, our work is even more important in such turbulent 
and disordered regions.
    If we are able to address human trafficking in these conditions, 
development and security are fundamental. For this reason, we should 
join forces and integrate our efforts into the wider agenda of 
multilateralism on development and stability. In this context UNODC is 
working with the policy committee to mainstream transnational organized 
crime into the wider agenda of the UN.
    Trafficking in human beings is one of the most lucrative forms of 
organized crime, estimated to generated 32 billion US dollar in gross 
proceeds each year. Criminal assets arising from this grave violation 
of human rights and fundamental freedoms may be invested in legitimate 
and criminal activities, challenging economic security, fueling 
corruption and undermining the rule of law.
    OSCE and UNODC have joint their forces for leveraging their efforts 
to fight human trafficking through clamping down on money laundering. 
In the framework of the Alliance against Trafficking in Persons OSCE, 
participating States and Partners for Cooperation are harmonizing their 
actions and using the same decision-making aids. UNODC wholeheartedly 
endorses this approach and is proud to have joined the Alliance.
    An added issue behind the legal aspects of human trafficking is a 
lack of knowledge and understanding at the global level. In those cases 
in which prosecutions have been undertaken, very little is currently 
known about them internationally. This often leaves open questions as 
to how practitioners use the respective laws and what, if any, the 
characteristics of successful prosecutions are.
    In a bid to answer these questions, UNODC has developed a database 
of Human Trafficking case law to provide immediate, public access to 
officially documented instances of this crime. The database contains 
details on the nationalities of victims and perpetrators, trafficking 
routes, verdicts and other information related to prosecuted cases 
around the world. As such, it provides not only statistics on the 
number of prosecutions and convictions, but also the real-life stories 
of trafficked persons as documented by the courts.
    The database is aimed at assisting judges, prosecutors, 
policymakers, media researchers and other interested parties by making 
available details of real cases with examples of how the respective 
national laws in the place can be used to prosecute human trafficking.
    At the time of the launch of the database, more than 150 selected 
cases from over 30 countries and two regional courts had been uploaded, 
with an additional 100 cases from over a dozen states to be added in 
the coming months.
    A little over a year ago the General Assembly passed by consensus 
the UN Global Plan of Action to Combat Trafficking in Persons. Promoted 
universal ratification of the United Nations Convention against 
Transnational Organized Crime and the Protocol to Prevent, Suppress and 
Punish Trafficking in Persons, Especially Women and Children, as well 
as other relevant international instruments that address trafficking in 
persons, and reinforced the implementation of existing instruments 
against trafficking in persons and building on the relevant sub 
regional, regional and cross-regional mechanisms and initiatives.
    In particular, Article 32 of the plan calls upon member states to 
Provide assistance and services for the physical psychological and 
social recovery and rehabilitation of trafficked persons.
    An important operationalization of the Global plan of action, and 
another mechanism promoting the right to an effective remedy for 
victims of trafficking is the ``UN Voluntary Trust Fund for Victims of 
Trafficking in Persons, especially Women and Children'' launched last 
November pursuant to Article 38 of the global plan of action. The fund 
managed by UNODC, provides humanitarian, legal and financial aid 
victims of the trafficking in persons through established channels of 
assistance, such as governments, Non Governmental Organizations and 
International Organizations.
    The Fund operates with the advice of a five member board of 
trustees appointed by the Secretary General. Last week, the Fund 
released its first trances of funding for frontline organizations 
working with trafficking survivors, with close to $300,000 being 
disbursed under a Small Grants Facility to organizations that are at 
the forefront of providing services to victims.
    The 12 selected projects for the first year of the Small Grants 
Facility cover all major regions of the world. Funded projects are set 
to be rolled out in Albania, Cambodia, Costa Rica, the Czech Republic, 
France, India, Israel, Kenya, Nepal, Nigeria, Moldova and the US.
    With projects running from ten months to three years, the funding 
assists in several areas, with the ultimate aim of empowering 
trafficking victims to regain their lives. These services include legal 
support to allow victims to seek justice against those who enslave 
them; facilities to register their identities and to return home; and 
much needed counselling, training and support to ensure they are in a 
position to rebuild their lives.
    To date about 1 million dollars has been pledged to this trust 
fund.
    The realization of the right to an effective remedy hinges upon a 
variety of interrelated factors. Accurate identification of trafficked 
persons is a pre-requisite for trafficked persons to be able to 
exercise the right to an effective remedy. More prosecution is needed 
not only to remove offenders from further criminality, but to also 
allow for the confiscation of assets so that such resources can be 
enforcers in identifying, tracing, freezing and confiscating assets, as 
well as drafting legislation to allow such assets to be used for 
compensation, is therefore also key to an effective right to a remedy.
    And pursuant to article 60 of the Global Plan of Action, in late 
2012 UNODC will issue its first biennial report on patterns and flows 
of trafficking in persons at the national, regional and international 
levels in comprehensive manner, sharing best practices and lessons 
learned from various initiatives and mechanisms. This strengthening of 
information collection and reporting is also part of a comprehensive 
and holistic response aimed at the right to an effective remedy.
    Distinguished Commissioners, Sixty three years ago, the General 
Assembly adopted the Universal Declaration of Human Rights. In doing so 
they proclaimed that all humans are born free, that no one shall be 
held in slavery or servitude, and that slavery and the slave shall be 
prohibited in all their forms.
    Yet today, millions of people, the majority of them children and 
women, are victims of human modern day slavery. As we go about our work 
to end this scourge, may we be guided by the wisdom of the survivors as 
to what type of redress is most meaningful, and to be able to find 
creative ways to make this happen. We have come very far in the past 10 
years; thanks to the support of MS and civil society we have an 
important protocol, and a promising global plan, as well as increased 
awareness. However, the traffickers are a clever and adaptable bunch - 
- in the end it is a battle of the wills: theirs or ours. Until we 
seriously address the root causes of trafficking such as [art 9] 
poverty, underdevelopment and lack of equal opportunity, traffickers 
will always have the upper hand.
    Thank you.

Prepared Statement of Ms. Martina E. Vandenberg, Pro Bono Counsel, The 
                          Freedom Network USA

    Chairman Smith, Chairman Cardin, and Helsinki Commission Members,
    Thank you for inviting me to testify before you today. It is an 
honor to have this opportunity to speak to you about the problem of 
human trafficking and transnational organized crime. I would 
particularly like to thank Congressman Smith for his dedication to the 
fight against all forms of human trafficking, including trafficking for 
forced labor and involuntary servitude.
    Over the years, under Chairman Smith's leadership, the Helsinki 
Commission has steadfastly fought to ensure that we never lose sight of 
the victims of human trafficking. It is that perspective that I hope to 
bring to your attention this morning.
    I serve as pro bono counsel to the Freedom Network (USA), a 
coalition of thirty-one nongovernmental organizations and individuals 
providing services to--and advocating for the rights of--trafficking 
survivors in the United States. The Freedom Network was founded in 
2001, immediately following the enactment of the Trafficking Victims 
Protection Act of 2000 (TVPA). Our members have served the majority of 
individuals certified by the Department of Health and Human Services 
(HHS) as victims of a severe form of trafficking in persons. We use a 
rights-based framework in providing those services. The Freedom 
Network's advocacy draws directly from the experiences of trafficking 
survivors we have worked with in the field.
    Organized crime brings to mind stereotypical gangsters, heavily 
armed and laden with cash. Human trafficking certainly encompasses 
traditional organized crime. But more often, human trafficking is 
conducted by ``disorganized crime:'' small groups operating 
independently. The United Nations Convention Against Transnational 
Organized Crime defines an ``organized criminal group'' as a 
``structured group of three or more persons, existing for a period of 
time and acting in concert with the aim of committing one or more 
serious crimes or offences..'' Using this definition, consider the 
following cases:

    <bullet>  Mondragon: In 2006, Oscar Mondragon pleaded guilty to 
conspiring with his two brothers to lure young women from Central 
America to the United States with promises of good jobs. When the women 
arrived, Mondragon and his co-conspirators held the women in forced 
labor in Houston-area bars and cantinas selling high-priced drinks to 
male customers.
    <bullet>  Carreto: In 2008, a diminutive grandmother pled guilty to 
sex trafficking for her role in a family-run gang based in Tenancingo, 
Mexico. According to the indictment, two of Ms. Carreto's sons and an 
associate used ``physical violence, sexual assault, threats of harm, 
deception, false promises and coercion'' to force the women into 
prostitution in the United States.
    <bullet>  Calimlim: Two physicians in Wisconsin were convicted in 
2006 of trafficking a young woman and holding her in their home for 
nineteen years as a domestic servant. The physicians threatened the 
victim with deportation and imprisonment if she disobeyed their orders. 
After the criminal convictions, pro bono attorneys filed a civil 
Racketeer Influenced and Corrupt Organizations Act (RICO) action 
against the physicians and their three adult children.
    <bullet>  Askarkhodjaev: Askarkhodjaev: An Uzbek citizen, 
Abrorkhodja Askarkhodjaev, was sentenced to 12 years in prison in the 
first forced labor trafficking case charged as part of a criminal RICO 
conspiracy. Akarkhodjaev and his co-conspirators trafficked foreign 
laborers holding various visa statuses into the United States through 
three corporations for forced labor in hotels. According to the 90-page 
indictment, the traffickers charged their victims between $3,000 to 
$5,000 to obtain temporary employment visas known as H-2Bs. The victims 
and their families borrowed heavily to pay these fees.

    As these examples illustrate, this is organized crime 2.0. It is 
global. It preys on the vulnerability of migrants seeking a better life 
in the United States. In many cases, it relies on labor recruiters and 
middlemen to bring victims into the United States legally. It can be 
violent, but is not necessarily so. Debt bondage and threats of 
deportation are often enough to immobilize victims. But there is one 
feature the traditional gangsters and the new organized criminals 
share: they are laden with cash.
    In the words of Florrie Burke, a Freedom Network leader and one of 
the leading experts on human trafficking in the United States, ``We are 
seeing more family-run operations and small-criminal networks. It is 
not the old definition of organized crime. But it is just as 
dangerous.''
    With these cases in mind, I'd like to focus on three main areas:

        1. The need for victim and witness protection;
        2. The role of corruption in human trafficking; and
        3. The role of restitution in the fight against human 
        trafficking.

    At the end of my remarks, I will suggest some recommendations and 
remedies that may help in our joint mission: the eradication of human 
trafficking.
Victim and Witness Protection
    In the United States, and throughout the OSCE region, victims look 
to non-governmental organizations and civil society for support. 
Trafficked men, women, and children arrive on the Freedom Network 
members' doorsteps in very different ways. Some escape from their 
traffickers and find the NGOs. Others are identified in raids by law 
enforcement and referred to service providers. Still others find help 
through Good Samaritans or faith-based communities. But no matter how 
they find these organizations, the victims have several things in 
common. First, they are highly traumatized. Second, they are utterly 
terrified. And third, they are concerned about family members, 
particularly children, back in their country of origin.
    The Freedom Network has advocated forcefully over the past eight 
months for improvements in protections for victims of human 
trafficking. The key building block for protection in the United States 
is continued presence, a temporary form of immigration relief available 
only through federal law enforcement. Continued presence (CP) permits 
victims of trafficking to remain in the United States during a criminal 
investigation, without fear of deportation. CP also allows the victims 
to obtain a work permit and minimal benefits. The concept, embedded in 
the TVPA, is that victims able to stabilize their lives and their 
status will be able to cooperate in a criminal investigation.
    But the numbers of victims receiving continued presence has 
plummeted. According to the State Department Trafficking in Persons 
Report for June 2011, 299 victims received this very basic form of 
protection in 2009. In 2010, only 186 did.
    The failure to protect victims of human trafficking--in part so 
that they may serve as witnesses in criminal cases against their 
traffickers--is one explanation for the abysmally low number of 
prosecutions in the United States and around the world.
    How low is that number? In 2010, there were just 103 federal 
prosecutions of 181 defendants, with 141 convictions in the United 
States. In the entire world, there were just 6,017 prosecutions and 
3,619 convictions. And in Europe, there were 2,803 prosecutions, 
resulting in just 1,850 convictions.
    Victims who do not feel safe will not come forward to testify 
against their traffickers. Victims with family members remaining in the 
country of origin, particularly children, are often too terrified to 
cooperate. In some forced labor cases, relatives may work for the 
traffickers back in the home country, placing them at risk. In the 
Carreto case, the forced prostitution case highlighted above, the 
traffickers held the victims' children hostage back in Mexico. 
According to Suzanne Tomatore, an attorney and co-chair of the Freedom 
Network, Russian traffickers operating in New York routinely terrified 
their victims by bragging about links to organized crime back in 
Russia. Family members at home would not be safe unless the victims 
continued working in strip clubs, surrendering all of their earnings.
    These cases speak poignantly to the need to protect not just the 
victims in the United States, but also their family members abroad. 
Family members should be paroled into the United States. The categories 
for derivative status--that is family members of victims receiving T-
derivative visas--should be expanded. And prosecutors in U.S. Attorneys 
offices need additional training. The AUSAs must not only understand 
human trafficking, they must also appreciate the risks that victims 
take in coming forward. In a recent case, an Assistant U.S. Attorney 
responded to a victim who had expressed fear of her trafficker. The 
AUSA told the victim, who spoke only limited English, that she should 
``Call 911.'' Victims must be treated with sensitivity and care by law 
enforcement. Only then will we see victims willing to come forward to 
prosecute the perpetrators.
Corruption and Human Trafficking
    Corruption is fundamental to traffickers' success. I have testified 
before the Commission in the past about concrete cases of corruption I 
documented in post-conflict Bosnia & Herzegovina. There, as reported in 
the Human Rights Watch publication, Hopes Betrayed: Trafficking of 
Women and Girls to Post-Conflict Bosnia & Herzegovina for Forced 
Prostitution, corrupt police officers participated directly in 
trafficking. Some local police officers moonlighted as guards in 
brothels holding trafficked women and girls from the former Soviet 
Union. Traffickers provided pay-offs to local police in the form of 
cash and free sexual services in exchange for protection from raids.
    At every step along the trafficking chain, there is an opportunity 
for bribery. In one case reported by La Strada, a well-respected anti-
trafficking network in the OSCE region, a trafficker transported women 
by train across a border within the former Soviet Union. The trafficker 
held the passports for all of his victims, paying a customs agent a 
bribe for each woman traveling without a passport.
    Does corruption matter in the United States? True, we do have the 
rule of law. Corruption is far less prevalent than in many other OSCE 
countries. But it is not non-existent. Take, for example, the case of 
an ICE agent from Florida. He pled guilty to soliciting kickbacks from 
a confidential informant working on a trafficking investigation. The 
ICE agent also demanded and received $12,000 from an individual in 
Ecuador smuggling migrants into the United States. In 2006, federal 
authorities indicted two NYPD officers for accepting bribes from 
traffickers operating a string of brothels on the Eastern seaboard. The 
traffickers, who forced women from Korea into prostitution, paid an 
undercover detective investigating these crimes more than $125,000 in 
cash.
    Corruption and organized crime have a symbiotic relationship. But 
corruption is one of the most under-reported elements of human 
trafficking. And for victims, one of the most fundamental.
    Whether the bribes occur here or abroad, corruption plays a 
fundamental role in the lives of trafficking victims in the United 
States. It is the backdrop. Many of the trafficking victims the Freedom 
Network members have encountered over the years come from countries 
where corruption is rampant. These victims bring an expectation of 
corruption. They believe that the police have been bribed. Many are 
convinced that the judge can be bought. Their traffickers have told 
them time and time again that once captured by U.S. law enforcement, 
they will be detained, prosecuted, and deported. For many of our 
clients, a ``rescue'' by Immigration and Customs Enforcement (ICE) 
agents is not a rescue. It is the culmination of all the horror stories 
told by traffickers. It is - in the victims' eyes - an arrest. Victims 
from countries where justice is bought and sold see little hope for 
escape. And the traffickers stoke and exploit these fears. Corruption 
silences victims. It guarantees impunity.
Restitution and Human Trafficking
    Under U.S. law, restitution for trafficking victims is mandatory. 
18 U.S.C. Sec.  1593. That is the law. The reality looks quite 
different. In the experience of the Freedom Network members, 
restitution orders are almost never collected. In some cases, the 
seized assets go to government coffers. In other cases, the U.S. 
Attorney's Office does not follow up on the restitution order 
aggressively. Restitution orders must be enforced. In the first 
instance, it is the federal government's responsibility to do so.
    Why does restitution matter? First, seizing criminals' assets 
deters crime. Trafficking is lucrative. Enforced restitution orders 
render it slightly less so. Second, trafficking victims are owed these 
funds. Restitution orders cover back wages and earnings stolen from 
them.
    There is an enormous difference in the lives of trafficking 
survivors who receive their restitution orders and those who do not. 
Those who do can move out of economic crisis and secure a toe hold into 
normal life. Those who do not often continue to struggle, trapped in 
low wage jobs and exploited by unscrupulous employers.
    Mandatory restitution offers the promise that victims can move on 
with their lives. But mandatory restitution is broken in the United 
States. Several years ago, Senator Durbin sent questions to the 
Department of Justice requesting data on the amount of restitution 
collected for victims, compared to the amount of restitution ordered. 
The Department of Justice responded that the government did not track 
these statistics. That is a mistake. Prosecutors should be trained: a 
case does not end with a criminal conviction. It ends with payment in 
full of the criminal restitution order. The Department of Justice 
should track the amounts of restitution collected and incorporate this 
into the performance evaluation metrics for federal prosecutors.
    But that is not enough. The small number of victims who do receive 
restitution checks are horrified to learn that their back wages and 
restitution payments are taxable as federal income tax in the year 
received. That means that a victim who collects ten years' worth of 
salary in one year will have to pay taxes in the highest income tax 
bracket. It is the traffickers - not the victims - who have committed 
tax fraud and evasion. Just as the Feds nailed Al Capone on tax 
evasion, traffickers should be forced to pay these taxes. Restitution 
orders must be increased to cover the taxes. Alternatively, trafficking 
victims should be given a tax waiver, much like that provided to 
Holocaust survivors who recover for crimes committed against them 
during World War II.
    Restitution orders serve another purpose. With assets, trafficking 
victims can bring their family members to the United States. They can 
afford safe housing and transportation. And they can relocate for their 
own protection. There is no higher use for organized crime's ill-gotten 
gains.
Recommendations:
        1.Increase the use of continued presence to protect victims of 
        human trafficking;
        2.Parole relatives of trafficking victims into the United 
        States to permit victims to cooperate with law enforcement 
        fully - and without fear of retaliation against family members 
        in the country of origin;
        3.Increase the categories available for T-derivative visa 
        status to permit trafficking victims to relocate close family 
        members to the United States;
        4.Ensure that trafficking victims are not held in immigration 
        detention;
        5.Improve the Department of Homeland Security's efforts to 
        screen individuals to identify trafficking victims;
        6.Increase the attention in the State Department's Trafficking 
        in Persons Report to the role of corruption in human 
        trafficking. This should include trafficking by state 
        officials, with a particular focus on diplomats trafficking 
        domestic workers for forced labor;
        7.Train law enforcement authorities in the United States: 1) to 
        anticipate trafficking victims' unwillingness to cooperate 
        after a ``rescue''; and 2) to understand the role of corruption 
        in countries of origin;
        8.Include fraud in foreign labor contracting as a RICO 
        predicate act;
        9.Train prosecutors to engage in enforcement of restitution 
        orders;
        10.Reward prosecutors for cases where restitution orders are 
        paid through positive performance review metrics;
        11.Make restitution orders tax-free in the United States; and
        12.Request a Government Accountability Office study on 
        collection of criminal restitution orders in human trafficking 
        cases.

    These recommendations return our focus to where it should be: on 
the human rights of trafficking victims. Again, I thank you for this 
opportunity to speak with you. I would be happy to answer any 
questions.

                                 [all]
                                 
                                 
                                 
                                 
                                 
                                 
                                 

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

          *    *    *

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

          *    *    *

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

           *    *    *

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
                                 
</pre></body></html>
